<html>
<title> - ONDCP REAUTHORIZATION: THE NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
   ONDCP REAUTHORIZATION: THE NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 27, 2003

                               __________

                           Serial No. 108-17

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                        U.S. GOVERNMENT PRINTING OFFICE
                              WASHINGTON : 2003

87-450 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
              Randy Kaplan, Senior Counsel/Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
        Christopher A. Donesa, Staff Director and Chief Counsel
               Elizabeth Meyer, Professional Staff Member
                         Nicole Garrett, Clerk
                  Julian A. Haywood, Minority Counsel

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 27, 2003...................................     1
Statement of:
    Marston, Christopher, Chief of Staff, Office of National Drug 
      Control Policy.............................................    21
    Pasierb, Steve, president, Partnership for a Drug Free 
      America; David McConnaughey, Ogilvy & Mather; and Peggy 
      Conlon, president and chief executive officer, the Ad 
      Council....................................................    51
    Portman, Hon. Rob, a Representative in Congress from the 
      State of Ohio..............................................     9
Letters, statements, etc., submitted for the record by:
    Conlon, Peggy, president and chief executive officer, the Ad 
      Council, prepared statement of.............................    86
    Marston, Christopher, Chief of Staff, Office of National Drug 
      Control Policy, prepared statement of......................    27
    McConnaughey, David, Ogilvy & Mather, prepared statement of..    73
    Pasierb, Steve, president, Partnership for a Drug Free 
      America, prepared statement of.............................    55
    Portman, Hon. Rob, a Representative in Congress from the 
      State of Ohio, prepared statement of.......................    12
    Ruppersberger, C.A. Dutch, a Representative in Congress from 
      the State of Maryland, prepared statement of...............   107
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4

   ONDCP REAUTHORIZATION: THE NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN

                              ----------                              


                        THURSDAY, MARCH 27, 2003

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:06 p.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Carter, Cummings, Bell, 
and Blackburn.
    Staff present: Christopher A. Donesa, staff director and 
chief counsel; John Stanton, congressional fellow; Elizabeth 
Meyer, professional staff member and counsel; Nicole Garrett, 
clerk; Julian A. Haywood, minority counsel; Jean Gosa, minority 
assistant clerk; and Cecelia Morton, minority office manager.
    Mr. Souder. The subcommittee will come to order. Good 
afternoon, this is our second hearing on the reauthorization of 
the Office of National Drug Control Policy and its programs. 
Today we will focus on the Media Campaign.
    The Media Campaign was authorized in 1998, and has since 
become a highly visible sign of the Federal Government's 
commitment to preventing drug abuse.
    It carries important messages to our kids about the 
consequences of drugs and reminds parents of the importance of 
their involvement in keeping kids from drugs.
    Advertisements on the consequences of marijuana use, ties 
between the drug trade and terrorism, and parenting sometimes 
now are becoming part of the popular culture that they were 
created to counter.
    The Media Campaign is also an integral part of the National 
Drug Control Strategy, and a key tool in meeting President 
Bush's aggressive goal of reducing youth drug use by 10 percent 
over 2 years and by 25 percent over 5 years.
    A year into that strategy, we are on track to meet the 
goals, but to do so will require a continued aggressive effort 
at drug prevention among children and youth. The Media Campaign 
is almost solely dedicated to the President's fundamental 
objective; without it our national prevention efforts would be 
reduced to the diluted messages of the Safe and Drug Free 
Schools Program and the independent pro bono advertising 
efforts of the Partnership for a Drug Free America.
    As one who has worked with this issue for several years, I 
believe it is clear that it will be very difficult to meet the 
national goal unless we have a robust Media Campaign. I, 
therefore, strongly support the reauthorization of the Media 
Campaign.
    At the same time, however, the subcommittee has serious and 
intensive work ahead of our committee to ensure that the 
program pursues its original goals, that it is accountable, and 
that it delivers results.
    We also must ensure that the ONDCP Director has appropriate 
flexibility to react quickly and to shape campaign messages, 
and that past contractor issues will never be permitted to 
reoccur. Today's hearing gives us an opportunity to examine 
several key issues prior to consideration of legislation to 
reauthorize the campaign.
    Among these questions are fundamental ones of program 
structure and management. The campaign originally was created 
primarily to fund the airing of anti-drug ads created on a pro 
bono basis by the advertising agency. It has since become far 
more developed and sophisticated, with the campaign contractor 
assuming a direct role in ad development and evaluation, as 
well as overall strategy.
    While this approach has had some demonstrable benefits, 
such as facilitating quick reaction and the coordination of the 
campaign with administration policy and strategy, the program, 
in many respects, now significantly differs from the original 
vision.
    The subcommittee will need to consider how best to balance 
the lessons we have learned from the first years of the Media 
Campaign with our ongoing goal of controlling unintended growth 
and complexity in government programs.
    We must also consider how best to provide for evaluation of 
the program and its results. I appreciate the significant 
efforts that Director Walters has made to improve and 
streamline evaluation of the Media Campaign, and I hope we can 
build on them to ensure clear, accurate, and unambiguous 
measurement of program results.
    Reauthorization legislation must also deal with questions 
relating to past contract irregularities that have already been 
reviewed in detail in the subcommittee. At a minimum, I would 
expect to ensure that any future contract irregularity would be 
grounds for disqualification from participation in the Media 
Campaign.
    Several other issues also await us, and I look forward to 
working with the subcommittee members, Director Walters, and 
interested parties to ensure a strong campaign in the coming 
years.
    We have excellent witnesses with us today to review each of 
these issues. Our first panel is Congressman Rob Portman, who 
is one of my co-chairs on the Speaker's Task Force on a Drug 
Free America. There are three of us, along with Congressman 
Mica. From the inception he has been at the fore of efforts in 
the House to create and support the Media Campaign.
    Our second panel will be Mr. Chris Marston, who is Chief of 
Staff to Director Walters at the Office of National Drug 
Control Policy, and is appearing on Director Walter's behalf.
    On our third panel, we will hear testimony from Mr. Steve 
Pasierb, the president of the Partnership for a Drug Free 
America. From Ogilvy & Mather, we have Mr. David McConnaughey, 
who I would like to thank for adjusting your schedule to be 
here. We appreciate that very much. From the Ad Council, we 
will be joined by Ms. Peggy Conlon, the president and CEO.
    I wish to thank all of you for coming, and I look forward 
to the discussion. With that, I yield to our distinguished 
ranking member, Mr. Cummings.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T7450.001
    
    [GRAPHIC] [TIFF OMITTED] T7450.002
    
    [GRAPHIC] [TIFF OMITTED] T7450.003
    
    Mr. Cummings. Thank you very, Mr. Chairman, and I thank you 
for holding this important hearing on one of the Federal 
Government's most important and visible drug prevention 
initiatives.
    One of two major national prevention programs administered 
by the Office of National Drug Control Policy, the National 
Youth Anti-Drug Media Campaign is the Federal Government's 
primary vehicle for communicating anti-drug messages to the 
American public, with the primary focus on discouraging illegal 
drug use among our youth.
    Authorizing jurisdiction for the Office of National Drug 
Control Policy lies with this subcommittee. In the weeks to 
come, it will be our job to report out legislation 
reauthorizing ONDCP, the Media Campaign, and other programs 
within ONDCP's administrative purview.
    In the meantime, we must evaluate the performance of those 
entities to date, and determine what changes may be in order to 
help the programs do more effectively the jobs Congress created 
them to do. Today's hearing is an important part of that 
process.
    From the beginning, the bedrock of the Media Campaign has 
been television advertising provided to the Government on a pro 
bono basis by leading U.S. advertising agencies through the 
coordinating umbrella of the Partnership for a Drug Free 
America.
    It is notable that the advertising industry took it upon 
itself to begin airing anti-drug ads well before the Government 
got involved. PDFA was founded in 1986 by industry leaders who 
had the vision to realize that their industry's talent and 
expertise could and should be brought to bear against the 
problem of drug abuse.
    Only in 1997 did the industry approach the Clinton 
administration in Congress for help in purchasing air time to 
keep the campaign going in the new environment of media 
deregulation.
    Because there was evidence that PDFA's anti-drug ad 
campaign had been effective in reducing drug usage, Congress 
appropriated $195 million for the campaign for fiscal year 
1998, and passed legislation authorizing appropriations through 
fiscal year 2002.
    Appropriations for the campaign have gradually declined 
over the past couple of years, and this year, the program is 
operating on unauthorized appropriations of $150 million.
    Even as Federal funding has dwindled ONDCP has pursued an 
ambitious multi-media strategy for the campaign, involving Web 
sites, print publications, and partnerships with the 
entertainment industry, community anti-drug coalitions and 
others, in addition to planning and executing media buys to run 
donated advertising.
    These efforts include creating paid content to extend the 
campaign's reach to specific minority and foreign language 
populations.
    All of this is commendable. The bottom line challenge that 
we face in reauthorizing the campaign is deciding how to 
maximize the campaign's impact in reducing drug usage.
    Since assuming the Office of Director of National Drug 
Control Policy, John Walters, to his credit, has restored the 
campaign's original focus on emphasizing the risk of drug use 
and targeting older teens.
    Director Walters and ONDCP also deserve credit for 
improving coordination and communication with PDFA, and 
increasing attention to ad testing.
    Despite the negative press attention that it has received 
of late, the campaign has produced positive results, but we all 
believe it can do better.
    Looking to the campaign's future, preserving the heart of 
the campaign by making the most of the expertise of the 
volunteering advertising agencies involved in creating pro bono 
content for the campaign, that must be a high priority.
    Other priorities should include ensuring the testing of ads 
and making sure we have an evaluation component that enables us 
to measure results in a timely and cost-efficient manner.
    Another important issue, Mr. Chairman, is fiscal 
accountability and contract management. The concept of Federal 
support for anti-drug media messaging is hard to find a fault 
with. But public support for this campaign can only be 
maintained with assurances that the well publicized contract 
mismanagement problems of the recent past will not occur again.
    We will hear today from most of the major parties with 
direct involvement in the campaign. And I want to extend my 
warm welcome to all of them.
    Last, but certainly not least, I want to welcome our House 
colleague, Rob Portman of Ohio, who will testify on the first 
panel. As you know, Mr. Chairman, Mr. Portman worked very 
closely with us in reauthorizing the Drug Free Communities 
Program in the 107th Congress.
    I am happy to be working with him again, and with Mr. Biden 
and Mr. Hatch in the other body, to develop a bill that 
addresses some of the critical areas in which improvements to 
the Media Campaign can be made.
    It is our hope that the bill, when introduced, will serve 
as a useful point of reference for the subcommittee, as it 
considers Media Campaign language for inclusion in the ONDCP 
reauthorization bill that will move through this subcommittee 
in the coming months.
    With that said, Mr. Chairman, I look forward to working 
with you, our fellow members of the Drug Policy Subcommittee, 
our counterparts in the Senate, Director Walters and ONDCP 
staff, and all of the groups represented here today, in a 
cooperative effort to make the campaign as effective and cost 
efficient and as accountable as it can be.
    I thank you again for holding the hearing, and I look 
forward to hearing the testimony of our witnesses.
    Mr. Souder. Thank you, Mr. Cummings.
    We are joined by our distinguished colleague from Texas, 
Mr. Carter, and also Mr. Bell. Do you have any opening 
statements?
    [No response.]
    Mr. Souder. Let me say for the record and for the other 
members of the committee, in 2 weeks, we will be having a 
hearing on the HIDAs, which is another key part of the 
reauthorization. Our intention is to move ahead with the mark-
up in subcommittee, right after break, after the April recess, 
basically that last week/first week of May, and then move to 
full committee, and we have been meeting with the Senate.
    But as Members have input on any of those particulars or 
for the hearings, I know in the legislation, we are doing all 
this simultaneously, so we can try to move the House version 
early on in the year and hopefully have it pretty synchronized 
with the Senate, as we move forth.
    I would like to ask unanimous content that all Members have 
5 legislative days to submit written statements and questions 
for the hearing record, and that any answers to written 
questions provided by the witnesses also be included in the 
record. Without objection, it is so ordered.
    I also ask unanimous consent that all exhibits, documents, 
and other materials referred to by Members and the witnesses 
may be included in the hearing record, and that all Members be 
permitted to revise and extend their remarks. Without 
objection, it is so ordered.
    Our first panel is our colleague, Congressman Rob Portman. 
By tradition, we do not administer an oath to Members of 
Congress, so you are recognized for 5 minutes. If you come 
forth and your ears are burning, we all said nice things about 
you in our opening statements, but you missed that.
    But we still feel those, and know that the record is 
littered with praise to Rob Portman for your leadership in the 
prevention efforts, both by the ranking member and myself. It 
is a great honor to have you here today to lead off our hearing 
on this particular aspect of the reauthorization.

  STATEMENT OF HON. ROB PORTMAN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Portman. Thank you very much for having me this 
afternoon to speak a little about a very important part of our 
overall efforts to reduce demand.
    Judge Carter, it is good to see you. Mr. Cummings, my 
colleague and co-sponsor of these important pieces of 
legislation on this issue, thank you for your many efforts back 
home in Baltimore and here in Washington to try to keep our 
kids safe and drug free. Mr. Bell, welcome to the subcommittee. 
I am sure it has been an interesting experience.
    Mr. Chairman, thank you for your leadership and for 
allowing me to testify on the reauthorization of the National 
Youth Anti-Drug Media Campaign. The subcommittee has been great 
to work with.
    It is always good for me to come back to this committee. I 
used to be a member of the Government Reform Committee, and I 
have great respect for your work and your jurisdiction over 
this issue that you have certainly taken very seriously.
    By recognizing the importance of the Media Campaign and an 
effective Media Campaign, you are signaling to our whole 
country that this Congress will not cede the health, safety, 
and lives of our children to the dangers of illegal drugs.
    We all want to prevent our children from using drugs. We 
all know there is no single magic bullet or solution that is 
going to accomplish this goal. But we also recognize, I think, 
as a group, that one important way to do so is to use the 
popular media.
    As you all are well aware, the Partnership for a DrugFree 
America, and I see some of the representatives here today, 
operated a successful Media Campaign long before we got 
involved.
    The Federal Government got involved when Congress 
understood the importance of the anti-drug media message and 
wanted to ensure that it would continue at a time when, 
frankly, for a variety of reasons, it appeared there would be a 
serious drop-off in public service advertising, particularly 
doing prime time with regard to the TV advertising.
    Congressional involvement began in 1998, with the idea of 
using Federal dollars, but on a matching basis to purchase 
media time to air anti-drug ads created by the best and 
brightest in the advertising world on a pro bono basis.
    The Partnership ensures that the creative and production 
elements of the process, the actual developments of the ads, 
are secured on a pro bono basis, which has been very important 
to us over the last several years. So we are receiving for free 
really what the corporate America community pays thousands and 
even millions of dollars for.
    Only the actual advertising time itself is purchased with 
these Federal tax dollars and, again, that is matched. Even 
though that is expensive, I believe the taxpayers get a strong 
return on the investment, as every dollar spent is matched.
    Since 1998, the Office of National Drug Control Policy, 
ONDCP, has run the National Youth Anti-Drug Media Campaign. 
With the help of their private sector partners, including the 
Partnership, the campaign has now created well over 200 
commercials.
    Some have said the campaign has lost its way. While the 
outcomes from the latest wave of data could have been better, 
not all the news is bad.
    We are seeing extremely positive outcomes with parents, for 
instance, which I think, all of us agree is extremely 
important. I believe it is the single most important thing, 
that we get our parents more engaged in our kids' lives, and 
talking to their kids about drugs.
    The Media Campaign has helped to make parents realize that 
they do play a vital role in preventing their children from 
using drugs.
    Unfortunately, we are not seeing a meaningful decrease in 
the most important number and that is the percentage of 
teenagers who are using illegal drugs.
    That being said, I remain convinced, Mr. Chairman, that the 
Media Campaign can be effective. I say this because of the 
proven ability of public service campaigns to change attitudes; 
when you change attitudes, you change behavior. We know it 
works.
    But I also see it firsthand in my own community. We have 
had a very aggressive anti-drug Media Campaign in Cincinnati, 
OH. We have gotten over $1 million a year in free advertising, 
and it has made a big difference.
    We know that because the Coalition for a Drug Free Greater 
Cincinnati, which I founded and served as chairman, has 
conducted a very comprehensive research-based survey, which 
showed a decline in teen drug use in our region for the first 
time in 12 years.
    Over the past 2 years, marijuana use by teens is down 13 
percent; alcohol use is down 24 percent; and cigarette use by 
teenagers is down 28 percent. The Coalition helps run this 
extensive local Media Campaign through TV, radio, and print.
    In fact, the local media in our area, again, has generously 
donated over $1 million in local anti-drug ads, on an annual 
basis, for the last 3 years. The survey data also tells us the 
Media Campaign is specifically involved in bringing these 
numbers down.
    Based on our survey, kids who have seen anti-drug ads on a 
regular basis are 20 percent less likely to use drugs. We 
surveyed, by the way, 67,000 local students from 123 high 
school. This is a huge sample. It almost makes it more like a 
census than a survey. Based on the experts, they believe these 
results, therefore, are extremely accurate.
    The results I have mentioned indicate to me that prevention 
and education tools like the Media Campaign are working, and we 
need to keep the effort going with effective media.
    Mr. Chairman, many ideas have been suggested to improve the 
campaign. As you know, I have been working with you and with 
Congressman Cummings, your ranking member, and also Senators 
Hatch and Biden, to draft legislation that would strengthen and 
improve the Media Campaign.
    We agreed that the Director of ONDCP must be granted the 
flexibility to chart the general course of the campaign and he 
should have the final say over the ads, because I think that is 
where the accountability rests, ultimately. We also believe the 
actual creation and production of the ads should be left to the 
experts, and on a pro bono basis.
    For efficiency and effectiveness sake, our bill seeks to 
delineate the functions carried out by the Drug Czar, who is 
Director of the ONDCP; the Partnership for a Drug Free America; 
and the contractor hired to purchase the actual advertising 
time.
    We also need to ensure that the greatest possible amount of 
funds that Congress appropriates to the campaign are used to 
purchase these ads: radio, TV, and print ads.
    Our bill will also put provisions in place to ensure that 
any remaining vestiges of fraud and abuse have been eliminated.
    Finally, Mr. Chairman, we need to better test the outcomes 
of these campaigns. We need to be sure that we have a clear 
understanding of the campaign's actual effects on teenagers and 
on their parents.
    Again, thanks for having me here today. I am very hopeful 
and confident that this and other hearings will give us the 
needed guidance to be able to draft a better reauthorization 
bill that will result in a more effective campaign.
    But I must say, again, now is not the time to let our guard 
down. I think it is a very crucial time, actually, for us to do 
all we can on the prevention time to decrease demand for drugs 
in this country. I look forward to working with you, Mr. 
Chairman, and the subcommittee on this very important project.
    [The prepared statement of Hon. Rob Portman follows:]

    [GRAPHIC] [TIFF OMITTED] T7450.006
    
    [GRAPHIC] [TIFF OMITTED] T7450.007
    
    Mr. Souder. Thank you very much, not only for your 
testimony, but your work. We were both relatively upset at some 
of the statements made around the release of some of the data 
and the interpretation which indirectly led to the funding 
being cut in the Appropriations Bill last year.
    Could you give your opinion, and I know how we both feel; 
but for the record, what would have happened, had we not had a 
Media Campaign, which is part of it; and elaborate on it a 
little bit on what you said, as far as its effectiveness and 
the problems we are having with how to measure it.
    Because the implication was that the ad campaign was 
failing, which I do not believe was the case at all. With the 
crime dropping in the United States, what we had were a couple 
of categories of questionable effectiveness in its relationship 
with the ad campaign.
    Mr. Portman. I think, again, if you look at the study and 
not just at the media stories that accompanied them, there was 
some very positive news in there. That is with regard to 
parents and changing attitudes.
    That, for us, I think, mid-term, and not even long-term, 
but over the next 2, 3, 4, 5 years, will have more impact than 
a single element of the campaign. Because, again, I think 
parents are the single most effective influence in a young 
person's life.
    Mr. Rung. All the data supports that, by the way. Sometimes 
as a parent, you may wonder, and I do, but that is the kind of 
direction that I think these ads can help us to obtain. So I 
was very impressed with that.
    I think some of the other data with regard to the young 
people was mixed, frankly. I was very disappointed, as you 
know, by some of the interpretations of some of that data that 
could have suggested that some young people and, particularly, 
I think it was girls, might have been influenced to use drugs 
more on the basis of the Media Campaign.
    That was later viewed to be inaccurate and was refuted, I 
think, in a very definitive way. But I thought that was 
irresponsible to have that out in the public.
    I also think that we can do a better job. You and I have 
talked about this, to be sure that these ads are all tested, to 
be sure that we are putting the very best up on the air, to be 
sure that we are focusing on where we view the problems, 
because they will change over time. That is in terms of drug 
use and in terms of attitudes.
    I also think, as you state, that there are so many external 
factors regarding drug use, including popular culture, and you 
mentioned crime, and other factors, that it is very difficult 
to pin the credit or the blame on one element or another, for 
our prevention efforts.
    But to me, it would be foolhardy for us to pull away from 
what we know in the abstract works, which is advertising; 
otherwise, my constituent, Proctor and Gamble, would not be 
spending the millions of dollars a year that they do to sell a 
soap.
    Second, we have good research on how anti-drug ads do make 
a difference. We would be, I think, at a very crucial time, 
setting back our efforts substantially.
    Finally, I will say that there is some good data out there. 
I mean, look at Monitoring the Future, which is probably the 
best single survey, nationally. If you look at their data over 
the last 2 years, and even back to 3 years, we are beginning to 
see some leveling off, finally.
    As I have told you, back in our own community of 
Cincinnati, for the first time in a decade, we are seeing 
reductions in drug use. Our survey, we believe, is about the 
best local survey we know out there.
    We benchmarked to all the past surveys that have been in 
our local community. We benchmarked to the national survey, 
including Monitoring the Future survey. We are encouraged by 
the fact that by having what we think is the most aggressive 
anti-drug Media Campaign in any market our size in the country, 
that we are making a difference.
    So I would just say that if the President is going to 
achieve his lofty and, I think, very appropriate goals of 
reducing drug use by 10 percent over the next 2 years and 25 
percent in 5 years, which I know this subcommittee supports, we 
sure as heck better have this tool in our tool belt, which is 
an effective popular media culture campaign; where we are 
dealing with these kids through the media that they actually 
watch. That significantly includes television, but also radio 
and appropriate print.
    So I know there has been a lot of discussion in this 
committee, as to how to best measure, and I do not have any 
single magic bullet there, either.
    Measurement is tough, but I do think we need to be sure, as 
Members of Congress, that we're holding ONDCP's feet to the 
fire, and the Partnership's feet to the fire, on testing these 
ads, making sure they are as effective as possible, before they 
go on the air; and then once they do go on the air, continuing 
that testing.
    That is totally appropriate for us to insist on, and I 
think that should be part of our effort with the 
reauthorization.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. First of all, I want to thank you, 
Congressman, for all your efforts. It is certainly good that we 
are able to come together on a bipartisan basis, to address 
such a significant problem.
    I just wanted to say, we have spent a lot of time in this 
subcommittee, last session, talking about the Ogilvy part of 
this process. Mr. Barr, he and I did not agree on 99 percent of 
things, but we need to agree that if the public is not 
satisfied that things are right with regard to the way the 
money is being spent, then it does not help the campaign.
    I have often said that Republicans and Democrats agree that 
our funds should be spent effectively and efficiently, our tax 
dollars. I am just wondering, do you feel satisfied that matter 
has been cleared up now? I know you have kept your eye on it.
    Mr. Portman. Mr. Cummings, that is a very important issue, 
both because you and I do not want to see waste and, certainly, 
fraud, in any of our spending programs.
    But specifically, you say on this program, the last thing 
we want to do is have our colleagues, who have basically looked 
to us to provide some leadership, and particularly this 
subcommittee, to say, wait a minute, we are willing to do these 
ads, but not to have any fraud or certainly any waste of money 
in the process of doing something, which is pioneering. The 
Government getting involved in advertising is a big step.
    So I was extremely concerned about it, as you were. I was 
at one of those hearings where Mr. Barr spoke about it. I think 
the issues have been cleared up, in terms of the specific 
allegations.
    I also think that when they went through the process of 
letting the contract; I know you spoke with ONDCP on the public 
record, and I am sure you did privately, as well, as did I, on 
a private basis, that I believe that was a fair and objective 
process.
    They ended up going with the same contractor, but only 
because that contractor won through a fair and objective 
process, and I believe that.
    So I think we are back on the road. I do think there are 
some outstanding issues, and they relate less to the fraud 
issue and more to the question of, what is the role of that 
contractor? Should the contractor be simply to purchase ads?
    Let us assume, as I said, that it was a fair and objective 
process; they are the most efficient entity to do that. In 
other words, they are giving us the best deal, the ``best bang 
for the buck,'' in terms of buying those ads.
    Should they also be producing those ads, or should we be 
having the traditional practice of production of the ads by the 
best and brightest in the creative process, in particular, on a 
pro bono basis, and then having the contractor simply purchase 
the ads?
    I think that is a concern of mine. I think we, in certain 
instances, should allow flexibility to permit that to happen, 
when there is a timing issue, when there is just an inability 
to get creative through the more traditional process, which is, 
again, a pro bono process, where you have Madison Avenue's 
best.
    But I think it should be very limited, and I think you and 
I are in good discussions about that with regard to our 
reauthorization bill. So that is the contractor issue that we 
face now; what should their role be? I think Congress 
appropriately should help to identify that role, rather than 
leaving it strictly up to ONDCP.
    Mr. Cummings. The reason why I asked you that question is, 
the whole concept of advertising and even treatment, it seems 
as if many Members of Congress and the public, I think are 
basically willing to allow us to go to a certain degree, and 
they are even a bit skeptical.
    When you are talking about ads, and you are talking about 
$195 million, and you are talking about drug treatment, and 
whether it works, I guess, first of all, I agree with you; that 
as far as the process of Ogilvy being selected again, from 
everything that I heard, I think that it was a fair and open 
process.
    But at the same time, I just want to make sure if there are 
things that maybe were not in the previous legislation, if we 
have learned some things in this process; I mean, some things 
you simply cannot legislate. But there are other things that we 
need to have, as a part of the reauthorization, that might help 
us to avoid some of those problems, and I think we ought to try 
to do that.
    I do not know what they are, I am sure. But I was just 
wondering whether you had some ideas, and I think you have 
given us a pretty general overview there; but if there were 
specifics.
    Mr. Portman. Well, I think you have raised an appropriate 
issue. I think I mentioned earlier in my testimony that I have 
a concern that this money, as the chairman indicated, got a 
short haircut last year.
    Then when you look at it on an inflation index basis, it is 
obviously not keeping up with the cost of ads and the inflation 
in that business. So we have got fewer dollars to work with. We 
have got a huge problem out there. We are trying to leverage as 
much of the private sector match as possible.
    Again, locally, we get a lot of this free, all together. We 
do not even use the Federal match. I think we have got to be 
sure that it is not spread too thinly, and I think that is one 
of the issues that you and I have talked and need to address; 
what should Congress' role be there? We should not legislate in 
a way that ties ONDCP's hands to be able to react to 
circumstances as they change.
    On the other hand, if we believe that the taxpayer's dollar 
would not be well spent by being spread out over a lot of 
sporting promotion events, or a lot of Internet advertising or 
messaging, and a lot of other fora that dilute the central T.V. 
portion of those particularly; and also radio and print, then I 
think we should stipulate some of that in the legislation. We 
have not done that in the past. So I think that is a legitimate 
example of what you are talking about.
    All of us run political campaigns. Some of us have to spend 
more than others. Unfortunately, I do not have to spend as much 
anymore, due to TV. But when I did, you know, all your 
consultants say the same thing, which is you need to have a 
certain amount of advertising on TV to make a difference. 
Otherwise, you are throwing your money away.
    That general concept, I think, applies to advertising, in 
general, and we need to deal with that in this reauthorization 
bill.
    Mr. Souder. Thank you; pencils are not a big portion of our 
budget, when we are in a close race, and that is part of the 
danger. We need to make sure that your Cincinnati data is part 
of the debate. Because a key part of that was the $1 million 
local match.
    We either need to make sure that there is a threshold of 
advertising. Otherwise, the data is going to come back more and 
more negative. As you reduce the television advertising, it is 
going to have less impact, and then they will say, it is not 
working.
    Then, in fact, we would be throwing away the money. If 
there are also ways that we can get--in other words, if you are 
going to go to things that are not on television, you would 
have to show that the market area came up with some kind of a 
match. We need to look at some kind of a creative way to dress 
up, because without a certain threshold, it is probable.
    We need to look at some kind of a creative way to address 
that, because without a certain threshold, it is probably 
wasted.
    Mr. Souder. Judge, do you have any questions: Mr. Bell?
    Mr. Bell. Thank you very much for your testimony, and I 
just have a couple of questions, based on what you have seen 
and witnessed with the overall ad campaign.
    You referenced the testing of the ads. What kinds of tests 
have worked, in your opinion, because obviously, there are 
different ways to approach that.
    Mr. Portman. There are, and as I said earlier, I do not 
think there is any silver bullet there, either. As I said at 
the outset, there is no silver bullet in general in this 
prevention and education area. We do everything, and come at it 
from all angles.
    With regard to the ad testing, there are experts who will 
testify, in the course of this hearing, who will know a lot 
more than I do, and they are the ones that should answer this 
question, but let me take a stab at it.
    My concern is that if the testing is done on a focus group 
basis, and that data is used to make a determination, yes or no 
on an ad, and the focus group is not large enough or 
representative enough, particularly of the group we are trying 
to address with these ads, and affect a behavior of, that it 
can be quite misleading.
    I know there are people that do this professionally, who 
have been involved in this process, again, who can talk about 
it much more intelligently than I can.
    But I want to be sure that the testing that is done is 
broad-based enough, representative enough of the group we are 
actually trying to address, so that we do not come to premature 
conclusions as to the effectiveness of the ads. I also had made 
the point earlier that we should test all the ads, and we were 
not doing that.
    Mr. Souder. So some would be put on the air without ever 
being tested?
    Mr. Portman. Right, and others can talk to you more 
specifically about how that happens and why it happens. My 
understanding is that the goal now is to test all ads.
    Again, you have got the best minds in corporate America out 
there working on this, so you should come up with some pretty 
good material; but even they, sometimes, miss the mark. So 
there is a need to test them before the taxpayer's money is 
used to go out and buy the ads.
    Then once they are up, we should again see what is the 
impact. That should not just be focus group. I think it should 
be a broader-based survey of some kind.
    Mr. Bell. And let me talk to you about that for just a 
moment, as far as the impact and measuring the impact, because 
we get confronted with so many different figures, from so many 
different types of surveys here.
    Do you have a certain level of confidence in the figures 
that you relayed here today, in terms of the decreases that 
have been seen? Do you have any sense of confidence that those 
decreases can be directly related to the ad campaign?
    Mr. Portman. Well, the survey data that I indicated earlier 
is from our local survey. Again, it is 67,000 kids. It is a 
very substantial part of our junior high and high school 
population in Greater Cincinnati.
    What the experts tell is that because it is an anonymous 
survey, and because they have gone back to test these surveys 
with followup questions and so on, that they believe these 
surveys are very accurate. The one concern that I have with the 
surveys is that they do not pick up the kids who drop out of 
school, because they are not there to take the survey. This 
would sometimes skew the figures a little bit, in a more 
positive way.
    But I think the survey is good. What the survey showed us 
was that when you asked kids, have they seen the ads or not, 
they indicate yes or no, and how many times have they seen 
them, per month or per week, and then we ask the questions 
about their drug use.
    Those kids who have seen the ads tend to be the children, 
young people--junior high and high school--who use drugs less 
frequently. I think that is about as good as you are going to 
get, in terms of that kind of a survey.
    Now people could argue, gee, is that because those who 
watch TV more are, for other reasons, less likely to use drugs, 
I do not think so. In fact, you could make the opposite 
argument. I apologize to our TV people here, who disagree with 
that.
    But that is the data that I use from our local survey. We 
find that data is pretty compelling. We also have the general 
data which is, for the first time in a decade, in our area, we 
have actually seen a leveling off, 2 years ago, and now this 
last year, we have seen actually a decrease in use, and a 
pretty substantial decrease, when you look at the percentage 
decrease, and still unacceptably high levels. During that time, 
we have had a more and more aggressive Media Campaign.
    Mr. Souder. What about, as far as you also reference a lot 
of the ad being just on the parents now and getting them more 
involved; but as far as measuring that, and the effectiveness 
of that, and how many parents are actually responding, have you 
seen figures that give you a certain sense of confidence there, 
as well?
    Mr. Portman. Yes, I have. That is the most positive data 
that has come out of the testing that was done if the ad 
campaign. There is also though a lot of good data out there 
indicating that if you can get parents involved in talking to 
their kids about the dangers of drug use, that there will be a 
substantial decrease in drug use.
    We would like to take it locally to the next level, which 
is not just talking to kids about it, but talking about the 
dangers of drug use and arming parents with the kind of 
information they need to be able to talk to their children more 
intelligently about it. We spend a lot of time locally doing 
that.
    But the data there is unbelievable. There is a study out 
there which shows there is a 50 percent decrease in drug use 
among those kids whose parents talk to them about the dangers 
of drug use and get engaged in their lives on it. I have also 
seen data as high as 75 percent. I am not sure I would believe 
that. Again, there are some experts here who can talk more 
about that.
    But the Pride Organization out of Atlanta has done some 
good work on that. I think, generally speaking, there is an 
agreement among the people who follow this much more closely 
than I do, that getting parents engaged on this issue, rather 
than, as in the case of many baby boomers, taking a pass on it, 
because they may feel guilty about their own past drug use, so 
they are just uncomfortable raising it; or they are just too 
darn busy, because they are passing in the night as they go off 
to their second job.
    But if you can get parents to engage, that is the single 
most effective tool to reducing substance abuse. It is the best 
prevention tool because, again, the data shows that young 
people still listen to their parents. Although they may not 
seem like they are listening at the time.
    Mr. Bell. It sure does not. I have got a 12 year-old, 
almost 13 year-old, and an 11 year-old, and I wonder, 
sometimes. But I think that is appropriate for this Congress to 
focus on, in terms of testing the campaign; not just looking at 
the impact on teens, but also looking at the impact on parents, 
because we need to use them more as tools. Thanks a lot; thank 
you, Mr. Chairman.
    Mr. Souder. One of our biggest challenges is how not to 
over-sell the campaign and what it can do; and at the same 
time, sell it so we get the adequate funding. It is a limit 
that we have.
    For example, basic advertising principles would tell you 
that, for example, the Drugs and Anti-Terrorism Campaign, what 
it is doing is selling the link between drugs and terrorism. It 
is a supposition that will reduce drugs. You cannot ask an ad 
campaign to do the supposition. That may be a second campaign, 
where we make the link on that.
    Yet, we are so busy trying to sell the basics, that we do 
not even do the normal two-step of ad campaign. Furthermore, 
the amount of advertising dollars that we have in this, 
compared to one movie or song that would promote a kind of a 
lackadaisical attitude toward marijuana, can be undone.
    Then the last part is, all the sub-markets that come in 
each day; families where they may only have one parent, and it 
is a dysfunctional family that is at high risk. It is so 
complicated with a limited amount of budget. So we do not want 
to over-sell this.
    Yet, what we know, fundamentally, is that this has to be 
doing tremendous good on any subgroup that we can reach; and 
that we cannot just do the Colombia plan that I agree with, the 
law enforcement; you have to have some prevention component.
    So the danger is, when we sell this hard, they say, the 
data is not doing everything that you say; yet, if we don't 
sell it, they will not give the funding for it. So it is a huge 
challenge.
    Mr. Portman. Well put, Mr. Chairman; I am glad you are 
chairing the subcommittee, because you spend enough time on 
this to understand some of these dichotomies and complexities; 
but still understand the importance of us taking the lead, as a 
Congress, in promoting prevention and education as an important 
part of the overall effort.
    Mr. Souder. Congressman Blackburn, do you have any 
questions?
    [No response.]
    Mr. Souder. Thank you very much for your time.
    Mr. Portman. Thank you, Mr. Chairman.
    Mr. Souder. If Chris Marston could come forward. He knows 
the drill, because he used to be a staffer here. He is one of 
our great alumni.
    [Witness sworn.]
    Mr. Souder. Chris, it is a great privilege to have you here 
today. You know the bill backward and forwards, having worked 
with it both from this side on the Hill with Mr. Portman, and 
now as Chief of Staff for Director Waters.
    So it is a great honor to have you here today. We will try 
not to get too much blood out of you during the questions, and 
we look forward to your testimony, thanks.

  STATEMENT OF CHRISTOPHER MARSTON, CHIEF OF STAFF, OFFICE OF 
                  NATIONAL DRUG CONTROL POLICY

    Mr. Marston. Thank you, Mr. Chairman, it is my privilege. 
Congressman Cummings, Congressman Blackburn, and Congressman 
Carter, thank you all for having me. It is a pleasure to 
testify on behalf of Director Walters and the administration in 
support of the reauthorization of the Media Campaign. It is a 
campaign that we are very proud of.
    Director Walters when he was last here 2 weeks ago to 
testify before you talked about the same study that Congressman 
Portman referenced, Monitoring the Future, that showed drug use 
declining, that was released in December. We think the Media 
Campaign had a great deal to do with that, and we are very 
proud of our contribution to it.
    Congressman Portman has reviewed a lot of fundamentals of 
the campaign, so I will not repeat those. But I do want to 
highlight a few things.
    I am loathe to disagree with the man that I respect and 
worked with. But just to briefly correct one portion of what he 
said, we pay, in addition to the purchase of the advertising, 
we actually pay a great deal of the production cost; not the 
creative services which the partnership and the agencies they 
work with on a pro bono basis, but we actually do cover most of 
the costs of producing the ads themselves; the fees for rolling 
film, having a director in place.
    Where ad agencies provide those services, obviously that 
comes pro bono. But in a great number of cases, we actually do 
pay for more than just the cost of playing the ads.
    So in addition to that component of the advertising portion 
of the campaign, I wanted to spend a brief moment on some of 
the non-advertising communications which, while they do not 
make up very much on the expenditure side, they are an 
important part of the campaign.
    To provide a little context, about 87 percent of the 
expenditures of the appropriated funds are for the advertising 
communications portion. That is having the contractor in place, 
having the production costs paid for and, of course, the very 
most significant part is the actual media buy for time and 
space.
    In addition to those expenses, on the non-advertising side, 
we have several Web sites, an ``800'' number and a clearing 
house that provides for film and services that give people 
additional context and information. The ads drive people to 
those resources, to get the help they need and further 
information. We think that is a very important part of the 
campaign, and an important support to the advertising itself.
    We also have corporate participation that we think adds 
quite a bit. It gives us some new delivery mechanisms for the 
same messages. It varies as to what they do.
    For example, Ms. Blackburn, the Greyhound terminal in 
Memphis is providing free play at the PSAs on its terminals, 
and that is part of our corporate participation program. 
Borders Bookstores are distributing some of the parenting 
information through their outlets.
    Safeways in this area actually are printing anti-drug 
messages on their shopping bags. We have cellular phone 
companies that include statements in their billing records. Our 
expenditure in corporate participation is under $1 million a 
year. So we think that adds a lot of value for a fairly small 
expense.
    Additionally, we pursue some earned media strategies to 
highlight our message, often based on the release of one of our 
advertising campaigns. We do aggressive work to get some earned 
media to bring more attention to the message.
    We also pursue, well, it is not so much earned media but 
related, in our entertainment industry round tables and our 
journalist round tables.
    Chairman Souder, you mentioned the impact that 
entertainment products such as movies and songs can have on the 
culture, and how the advertising is sometimes also a small 
force to push back.
    We are trying to change some of those messages that the 
entertainment industry provides, and we certainly do not think 
we are presenting a magical solution. But by reaching out to 
the entertainment industry, particularly writers and producers 
in Hollywood and New York, we think we are having an impact on 
having more accurate depictions of drugs in movies and popular 
entertainment. That is another small but important part of the 
campaign.
    I wanted to briefly review some of the changes we have made 
in response to concerns that this subcommittee and others have 
raised in the past. Director Walters made some significant 
changes, and he was aided in that effort by a task force that 
included several of the folks who are going to testify today: 
the Partnership for a Drug Free America, the Ad Council, our 
Behavior Change Expert Panel, and our advertising contractor.
    The changes are guided by our strategy, the National Drug 
Control Strategy, and some advertising industry best practices.
    From a strategic perspective, we look at the demand 
reduction problem for youth as a public health problem. The 
vector by which drug use spreads is non-addicted use. No youth 
sees an addict and says, I want to grow up and be like him. 
That is not the way it works.
    Rather, they are deceived by the lie non-addictive use 
presents, the lie that says, it is OK to use drugs. You can 
handle it. It is not a big deal. That is the force we need to 
push back against.
    In order to do that more effectively, we are targeting 14 
to 16 year olds, an older age group than the campaign 
originally targeted. That is the age group at which drug use 
nearly doubles among the population, and we need to present our 
message to the youth who are most directly exposed to the lie 
of non-addictive drug use.
    Additionally, we have increased and made an intense focus 
on marijuana, which is the drug responsible for the most 
treatment needed among youth. More than alcohol, more than all 
other illicit drugs combined, marijuana presents that problem.
    We have also shifted some resources from the parent portion 
of the advertising, which Congressman Portman mentioned as 
being quite successful, to the youth portion, where we think we 
have more room for success. So we are going to put more 
resources behind our youth messages.
    The task force also helped with integrating some best 
practices from the advertising industry. In particular, you 
have discussed testing today. We have raised our testing 
standards by changing from a procedure where we tested one of a 
group of ads, to literally testing each ad that we are going to 
air before it airs; and we have also increased the threshold 
for acceptance.
    In the past, we had a short set of belief statements that 
we would test the ads against; and as long as there were no 
negative results, we would say, OK, let us go ahead and air it.
    Now we are insisting on what I think is much more 
important, which is positive results on those belief 
statements, and that testing is a service that is one of the 
costs of our advertising contracts. So as you consider the 
balance of where funds should be appropriated and limitations 
on any particular role, I think that is important to keep in 
mind.
    We have also instituted greater involvement by all of the 
partners in the campaign at an earlier stage in the creative 
development and production process. This way, we hope to make 
sure we stay truer to strategy and decrease the need for late 
revisions in ads that can be much more costly; because if you 
change something early on it is, of course, a significant 
savings over having to make a change late in the process.
    We have also tried to make our ads more hard hitting. By 
that, I mean we have focused on more negative consequences much 
more heavily.
    We have some other strategies that we think are important 
in terms of giving coping skills to youth, and enforcing the 
positives that they have for not using drugs. But we focused 
much harder on negative consequences, and we have seen great 
results from that, particularly with our last round of 
advertising that Leo Barnett prepared, under PFA's direction, 
that played over from last fall through the holidays.
    Some of these negative consequences we have been trying to 
include are the external consequences; not just the consequence 
to yourself; but things like terrorism, the impact on your 
family, things that are external to you. We found that those 
messages can resonate, as well as messages about the 
destructive force to a youth, to himself or herself.
    In addition to these changes we have instituted, we are 
planning an early intervention strategy as a new initiative for 
the fall. We are going to promote early intervention by peers, 
parents, and other influences with youth who have begun to use 
drugs.
    To meet the strategic goals that Congressman Portman 
mentioned earlier, a 10 percent reduction in 2 years and 25 
percent in 5 years, we need not only to focus on a prevention 
message to stop people from using drugs, but we need to reach 
out to youth who have used drugs, casually and infrequently 
even, but who have used them and have a higher risk of becoming 
serious drug users and addicts.
    We need to get them to stop using. We need folks to 
intervene with them to stop that use. So that is one of the 
things that we are planning on in the future, that we are very 
optimistic about.
    I would also like to address the evaluation, which is a 
topic that received quite a bit of attention. We have an 
evaluation, an expertly designed instrument provided by 
contractors to the National Institute on Drug Abuse, that has 
evaluated the campaign's paid advertising portion.
    We are pleased by the results that it has shown on exposure 
and recall. Both were very high, and those are obviously 
important precursors to having an impact on behavior. We have 
been disappointed though on findings in changing attitudes, 
intentions, and behaviors.
    They did lead to the positive effect of assembling this 
task force and putting together some of the changes I have just 
mentioned. But they may have also been misleading, and I think 
that is the problem, Mr. Chairman and Mr. Cummings, that you 
referenced in terms of the appropriators deciding that a lower 
funding level would be appropriate.
    Unfortunately, the evaluation has been limited by its 
sample size to detecting changes of 3 percentage points over 
any period of time. While that sounds small, I am talking about 
the percentage change or actually the change in points from, 
say, 12 percent of youth who use marijuana to 9 percent.
    Well, my math is terrible, but that actually is a 30 
percent reduction. So 3 points is a substantial reduction. Did 
I get my math wrong? You are looking at me like it was wrong. 
[Laughter.]
    That is not a reduction that we would expect to see in a 6-
month period, and that is the frequency with which we have 
produced these reports. It would be virtually impossible to see 
that. Even in a 2-year period, that would be a remarkable sign 
of success.
    So as we look at these evaluations that have come in each 6 
months, it is really not a great surprise that we have not seen 
a behavior change that the evaluation instrument could 
register.
    As a result of that and also the decreased appropriation 
level, we have decided that it is probably not cost effective 
to continue on the course with the current evaluation. So what 
we propose instead is a measurement system that more closely 
mirrors what the professional advertising industry would use.
    What we plan to do is present data on the pre-testing of 
each ad that we have talked about before it airs, to show that 
both at the focus group level and on a quantitative level, 
where we actually do a survey on the ad, that we have good 
outcomes on belief statements specifically tailored to the ad.
    So does this change your attitude; does it change your 
intention; will it have a change in your behavior; or, if it is 
a specific execution, like drugs and terror, do you find this 
to be credible; statements that are directly related to it?
    So we will present that data to you which shows that the 
ads are likely to have an effect if they are exposed highly 
enough and have high enough recall.
    This next thing we will show you is the tracking data that 
is provided by our contractor, which is a standard industry 
practice, so you can make decisions about buying in the future, 
to determine how your ads are running now. That tracking data 
will tell us about the exposure of the ads and the recall of 
the ads. So those are important steps.
    But the big leap comes then, and we are totally satisfied 
with this, but we do not have a good alternative, to link those 
results to the national instruments that we already have; 
things like Monitoring the Future, the Partnership Attitude 
Tracking Survey.
    These national instruments are not specific to what is the 
outcome of this immediate campaign; but they give us the 
general sense of direction and amount of change in the drug use 
problem, and not just in the behavior, but also in attitudes 
and intentions.
    Also, several of them, although not all, have questions 
about your exposure to media messages, in general. So in that 
way, we hope to be able to link from our very specific data on 
particular ads to the national outcomes. We certainly will not 
be able to claim that the Media Campaign was responsible for 
the full change of drug use in any 1 year in either direction.
    We think that it is going to give you the kind of 
information that you need to make decisions about the campaign 
in the future, along with your colleagues on the Appropriations 
Committee.
    Having covered some of the things that are going on in the 
campaign now and changes that we propose to make, I just wanted 
to briefly highlight two items that we think are important to 
consider in the authorization. We will be formally transmitting 
our proposal in short order, to help the committee with its 
consideration of reauthorization of the whole office and the 
campaign.
    But the two things I would like to highlight today are 
first, to ask that you include in the authorization a provision 
that has been part of the appropriations since fiscal year 
1998, which allows us to pay for creative services when they 
are not otherwise available.
    It is certainly our intent and has been our practice to 
rely principally on the Partnership for a Drug Free America to 
provide pro bono creative services. There are a few 
circumstances in which that is not a practical solution.
    On some of our multi-cultural or ethnic advertising, it is 
very difficult to recruit a pro bono agency to provide creative 
services, and we do not want to leave out any part of the 
population in the reach of this message. So it is important for 
the Native American community, the African American community, 
some Asian foreign language groups, that we be able to provide 
those.
    There are also a few niche needs that we fill by using paid 
services. For example, to highlight one of our initiatives, we 
have a site called Mediastory.org, which provides information 
to journalists to help them with their coverage. We have 
promoted that in a publication that journalists frequent.
    That is not something that is a typical ad that would be in 
the paradigm that the Partnership for a Drug Free America 
works. It is also not a very expensive part of the campaign, 
either of those activities.
    So we hope that you will allow us to continue that on an 
authorized basis, as opposed to just a reoccurring 
Appropriation basis.
    The second change we would request, the FCC has recently 
made a decision that our media match, and the space and time 
that comes as a result of that, is not actually pro bono. The 
networks are giving it to us because we bought paid 
advertising. So in that way, it is not actually a pro bono 
service on their part.
    As a result, the Communications Acts rules that require the 
sponsorship of an ad to be displayed on the ad come into play.
    So for those ads that are not developed by the campaign 
itself, but play as part of our media match, they would have to 
be tagged as being sponsored by ONDCP, even if they are created 
by another organization, like Mothers Against Drunk Driving; 
the National Crime Prevention Council.
    That has created a big problem for the Ad Council. I know 
Peggy Conlon, who is testifying on the next panel, will have 
more to say about that. But we would ask you to accept from the 
provisions of the Communications Act the media match portion of 
our program.
    That covers the things that I had for my opening statement. 
I would be delighted to answer any questions the committee has, 
on any of those topics or anything else about the campaign.
    [The prepared statement of Mr. Marston follows:]
    [GRAPHIC] [TIFF OMITTED] T7450.008
    
    [GRAPHIC] [TIFF OMITTED] T7450.009
    
    [GRAPHIC] [TIFF OMITTED] T7450.010
    
    [GRAPHIC] [TIFF OMITTED] T7450.011
    
    [GRAPHIC] [TIFF OMITTED] T7450.012
    
    [GRAPHIC] [TIFF OMITTED] T7450.013
    
    [GRAPHIC] [TIFF OMITTED] T7450.014
    
    [GRAPHIC] [TIFF OMITTED] T7450.015
    
    [GRAPHIC] [TIFF OMITTED] T7450.016
    
    [GRAPHIC] [TIFF OMITTED] T7450.017
    
    [GRAPHIC] [TIFF OMITTED] T7450.018
    
    [GRAPHIC] [TIFF OMITTED] T7450.019
    
    [GRAPHIC] [TIFF OMITTED] T7450.020
    
    [GRAPHIC] [TIFF OMITTED] T7450.021
    
    Mr. Souder. Let me just say up front, we are going to 
submit quite a few written questions, so that we have it in 
detail. Let me also say for the record that this was sold as a 
national ad campaign, and the money for it will rise or fall on 
the success of the major ad campaign.
    I fear, even though every single thing that you raise in 
your testimony and that you are doing has merit. This is much 
like what we each face in our campaigns. Every single proposal 
that comes toward us to possible run as an ad sounds good. 
Every single thing for every sub-group sound good.
    But the bottom line is, if you do not reach a certain 
threshold, none of them work. If you are trying to be something 
to everybody, you are nothing to anybody. We were powerfully 
close, with the amount of money that we have, and we got a real 
wake-up call in the appropriations process.
    I was over at Appropriations yesterday to try to do it, but 
we have got a wake-up call that many Members of Congress feel 
that this is not focused enough and our results are not 
dramatic enough.
    I agree with your more complex measurement system. But the 
bottom line is, we are going to rise or fall on the ads. We 
have got to figure out how to make sure there is a threshold 
there and how to work it through.
    Now I believe that some of these sub-parts all sound good. 
But what I would like to know is, are you doing any 
measurement, like we are asking for the ad campaign, of the 
sub-parts?
    Because my feeling is, probably your dollars invested are 
so small that your measurement, it would not be wise to be 
doing measurement of it; in which case, whatever percentage of 
the budget that is, is not getting measured, and that may be 
the part that is not working. I will let you address that 
question.
    Mr. Marston. Certainly.
    Mr. Souder. For example, how would you measure Internet 
advertising to see whether it is working? How do you measure, 
other than the number of people who hit the Web page; but if 
you do not analyze it as hitting the Web page, how do we know 
there are not just a bunch of druggies hitting the Web page to 
see what it is; or the same people hitting it 1,000 times?
    You have to pay money for it, if you are only putting a 
little bit into it. But when you add up all these sub-parts, 
how do we know the effectiveness?
    Mr. Marston. Well, Mr. Chairman, you are right. It is a 
real challenge to evaluate it, and if I could, I would like to 
address the beginning of your comments, in addition to the 
portion about specific evaluation of those programs.
    You are right, that spreading thin is a challenge and we do 
not want to do. The one piece of good news is, at the amount we 
have been spending on advertising, we have had very, very high 
exposure and recall levels. So I do not think we are in a 
position where we are running a risk of having it too diffuse 
to make a difference. That is to provide a little context.
    On the specific additional activities and how we measure 
them, an example would be a promotional activity we took. It 
was an open letter to parents on marijuana.
    We did a type of promotional activity. It was a video news 
release and an audio news release that we released to a bunch 
of stations to generate earned media. We measured the content 
of stories that mentioned marijuana before and afterwards. We 
had an increase of 600 stories afterwards that portrayed 
marijuana in a more accurate light, more favorable to the 
position of, do not use drugs, than we did before.
    Each program we have to approach differently as to how we 
measure it. But we are working very hard to measure our 
results, and we plan to include that in the evaluations that we 
send up, along with the information about the advertising.
    Mr. Souder. Could you elaborate a little bit more on your 
multi-cultural activities, and how you see that as separate 
from the ad time? Do you do ad time that is counted in the ad 
time budget, that is targeted toward Black Entertainment 
Television, other specialty networks, or does that get counted 
if it is television under multi-cultural or does it get counted 
under the ad buy?
    Mr. Marston. We include the multi-cultural portion within 
the ad buy. In the last year, $12 million of about $150 million 
spent on advertising was on targeted multi-cultural messages.
    Mr. Souder. And we can ask this of the buying agency, but 
do you also factor in, high risk populations, whether they be, 
if you are moving from the little bit older group, from 14 to 
16, do you look at the buys of what they are watching, for 
example, and where these targeted subgroups are?
    Mr. Marston. Absolutely; that is one of the really 
important services that our contractor provides. We have target 
audience specialists, who provide assistance in the process of 
planning and buying ads; both in terms of what the message in 
the ad needs to be and in terms of where it should be played, 
to take into account just that factor of who is watching when.
    Mr. Souder. I have one last factual question. Roughly, what 
proportion of the time in billings from Ogilvy & Mather go to 
buying advertising time versus other activities related to the 
campaign. In other words, what percent is actually media buy?
    Mr. Marston. Eighty-six percent of their budget is for 
planning and purchase of media time. Seven percent of what we 
pay to them is for ad production, the costs I mentioned 
earlier, where even if the creative service is provided pro 
bono, we have to pay for some of the production. Six percent of 
it is labor fees, materials travel, and other direct costs that 
are negotiated as part of the contract.
    Mr. Souder. Tell me what the 86 percent was, again.
    Mr. Marston. That is for planning and purchase of media 
time and space, including the multi-cultural.
    Mr. Souder. How much of it is actual media time?
    Mr. Marston. The 87 percent includes all the funds that 
they actually use to purchase media. There is some additional 
money in there. I do not know what it is, but I will be happy 
to respond for the record.
    Mr. Souder. Yes, we would like to know what the planning 
percent is, the other percents, and then what is the actual 
purchase time.
    I have a technical question, too, to know whether, for 
example, if go through an agency, there is a 15 percent fee 
usually. So when I want the media time, I want the media time 
without the agency placement fee.
    In other words, the evening news in my district would be 
$700 if you go through and agency, and it is 15 percent less 
than that if I placed it direct without going through an 
agency. I want to know what is the actual real purchase time 
percent of the budget.
    I do not have a number that I am looking for, because I 
know people have to make money or they are not going to do it. 
But I would like to know how much of our budget is actually 
going into media time.
    Mr. Marston. Certainly.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Thank you, Mr. Chairman.
    Let me ask you, as far as this purchase of creative talent, 
I think that is how you phased it, you said you want some 
flexibility, right?
    Mr. Marston. To continue the practice we have with 
appropriators, yes.
    Mr. Cummings. Give me an example of what we are talking 
about. Have we run into that problem? Can you give me a live 
and in living color?
    Mr. Marston. Sure; I cannot cite a specific ad. But the 
Native American ads that I think you might have seen at a 
previous hearing of the subcommittee, those ads, because they 
were targeting a Native American population, it was very 
difficult for the Partnership to recruit an ad agency that just 
did Native American ads and have that as a specialty to work 
pro bono.
    So in that case, we went and paid a Native American 
advertising firm to develop those ads for us. That would be an 
example of procuring a creative services campaign.
    Mr. Cummings. Now a few years back, when the advertising 
campaign was moving along pretty nicely, there was a finding in 
some of the testing that African American young people were not 
being affected. As a matter of fact, I think it was going in 
the opposite direction. Their usage was maybe increasing 
slightly, but they were not affected like white kids were.
    What I did was, I brought the then-Drug Czar to Baltimore, 
and had him sit down with some young people, some teenagers, 
some high school kids, and looked at quite a few of the ads. 
They told him why ads were effective, and it was basically 
unanimous. I mean, I had about 100 kids.
    I guess what I am aiming at, just talk about all the things 
that are in place to make sure that these ads are being 
effective.
    These kids, when the Drug Czar listened to them, it just 
made sense why they did not think they were effective. So we 
are just spending all this money, and I just want to make sure 
we have all the mechanisms in place.
    I guess the thing that kind of got me about that one is, I 
thought we were doing all this testing and figuring out, and 
literally, this little venture that we did cost us nothing 
except bus fare to one location. They were the experts. After 
all, they were the ones that were affected.
    I just find it amazing. So often, we sit up here and we 
spend all this money on different projects; not just in the 
drug area. But we never even talk to the people who are 
affected. Talk to me.
    Mr. Marston. Well, we share your concern and we have taken 
steps to address it. The way we do our testing now, we start 
with focus groups very similar to the group you assembled for 
General McCaffrey. We have taken their perspectives, based on 
story boards, descriptions of the ads before they have gone 
into production. We get their opinions and take in that 
feedback.
    For a specific ad targeted at a multi-cultural community of 
some sort, we use that community to do the focus group. For a 
general audience, we collect a cross-cutting group of people 
for the focus group.
    Then we go on and the ad is produced, based on the learning 
from that focus group, we do our quantitative testing. Again, 
we would differentiate, if it is for a multi-cultural audience, 
to play a specific communications media for them. We test it 
with that group.
    If it is for a general market, we do the same kind of 
testing with a cross-cutting group of people. But we also test 
for negative, unanticipated facts.
    So if an advertisement, for example, had a very positive 
impact on white male youth, but unintended by the creators had 
a negative impact on young black women, then we would say, OK, 
we are not going to go with that, because it is obviously going 
to reach that audience, as well.
    So we take that into account at testing in those different 
stages. That way, I think that we address very carefully your 
concerns. Specifically, we do that now on every advertisement, 
not just on one of the group of ads or anything like that. So 
every ad is tested in that way before it is put on the air.
    Mr. Cummings. Talk about, and I sure we will have some 
testimony about it a little later, the terrorism aspect. I am 
just wondering exactly how effective they are and what was the 
theory behind them. Maybe somebody else will tell me.
    I can understand perhaps right around September 11th, maybe 
it would be even more effective. It seems like as we would get 
away from September 11th, they might not be as effective.
    But the interesting thing is that it seems I see them more 
than I see any other ads. It may just be when I look at 
television; I do not know.
    But on the other hand, I am concerned about our young 
people being affected. I do not know how much they are affected 
by those ads. Those who are going to testify later, you might 
be able to answer this question. Think about that.
    I was just curious and, as a matter of fact, I have heard 
it in some of my town meetings. Because they know that I have 
something to do with this campaign, and they wonder why their 
tax dollars are being used talking about terrorism.
    They would almost rather see the kind of ads where Venus 
and Serena Williams were featured or, you know, something that 
could relate to their kids. So I was just curious about that.
    Mr. Marston. Sure, and I am actually pleased to hear that 
you see more of those ads than you do of other ads and that 
members of your communities do. Because we are targeting adults 
and people who influence youth opinions with those drugs and 
terrorists. They were not specifically targeted at our younger 
youth audience.
    If the folks at your town hall meetings were seeing ads 
with Serena and Venus Williams, I hope that was when they were 
watching television with their children, because that is who we 
are targeting with those ads.
    So much of the function of what you see and when you see it 
is a reflection of our buying strategy in reaching the kind of 
target that we are trying to reach.
    Mr. Cummings. Boy, that was a smooth answer; 2 points. 
[Laughter.]
    Mr. Marston. Thank you, sir; additionally, we have reached 
the same conclusion you have relating to effectiveness on drugs 
and terror and the distance in time between September 11th. We 
actually are slated to end our drugs and terror initiative, I 
believe it is in late May or early June of this year.
    We have done, as you know, several sets of those, and we 
have tried to make them more relevant as the time got further 
away by doing different things with them. But that initiative 
will be coming to an end.
    Mr. Cummings. But let me just say, that is not to say that 
I do not think they are not excellent. I think they are 
excellent, the drugs and terrorism. I just wonder about the 
effectiveness.
    Mr. Marston. Sure.
    Mr. Souder. Thank you; Judge Carter.
    Mr. Carter. I guess I am going to ask a couple of 
questions, because I agree that those are adult ads, the 
terrorism ads, and that was my comment just a moment ago to 
Congresswoman Blackburn. Your target audience, is it the young 
people, or is it all dope smokers in America?
    Mr. Marston. The target we are trying to affect the 
behavior of is youth in America. We have two strategies to do 
that. One is to target them directly with our advertising 
efforts. A second is to target their parents and other people 
who have influence over them, to get them not to engage in that 
behavior.
    Mr. Carter. But you are not trying to convert the parents.
    Mr. Marston. That is not a primary objective, no. If we do 
it, we will be very happy; but it is not one of our objectives.
    Mr. Carter. If I am understanding this correctly, because I 
am new at this; I am not new at drugs, but I am new at this, 
you are basically using television and radio almost 
exclusively. Is that correct?
    Mr. Marston. The bulk of our spending is television and 
radio. We also do print and we do some Internet advertising to 
drive folks to the Web sites we do, that provide additional 
information. We also put the Web address on the radio and 
television.
    Mr. Carter. Well, when I hear the word ``campaign,'' of 
course, I think about a campaign I just running.
    Mr. Marston. Sure.
    Mr. Carter. Being the poor kid on the block, I was not 
running a whole lot of television and radio, but we did direct 
mail.
    I happened to have raised four kids. I have never had one 
of my kids ever receive a piece of mail that they did not open, 
because they do not get that much mail. Have you ever, at all, 
thought about doing direct mail?
    Mr. Marston. I have not been with the campaign since its 
inception. I do not know that we have considered that, but we 
can certainly give it a look.
    Mr. Carter. I will tell you an experience that I had. I was 
a Juvenile Justice Judge, on a rotation basis, several times. 
In Texas, when you become 17, you are an adult in the eyes of 
the law.
    I can tell you where your at-risk kids are; they have 
dropped out of school. You know, most of your juvenile justice 
people know where they are.
    We send all 17 year olds on their birthday, that are at-
risk kids, and there are about maybe a couple thousand of them, 
a birthday card on their birthday, on their 17th birthday. It 
said, ``happy birthday,'' on the front, and it has got a cake. 
If we open up the cake, the cake is behind bars and it says, 
congratulations, you are now an adult in the eyes of the law. 
If you decide to break the law, you will go to the 
penitentiary; happy birthday.
    That is one of the most effective things we have ever done. 
Kids tell us about it, and it scares them to death. We get 
comments; we get calls. You are talking about an eye opening, 
as you kids say; and these are kids that have been in trouble 
and are at-risk.
    But they have been in the juvenile system, and they realize 
now that they are not playing in the juvenile system any more. 
They are playing in the adult system. I will tell you, it is 
very effective.
    Mr. Marston. Judge Carter, it sounds like a very 
interesting program. What I am going to do is share it with the 
folks who run our Drug Free Communities Program, and suggest to 
community coalitions that they consider an initiative like 
that.
    We will also take a look at whether mail might be a good 
strategy for the media campaign. One thing you should be aware 
of is, some of our corporate participation, while probably not 
as directly targeted at youth; although the ones who use cell 
phones and pay their own bills would get billing statements 
that have our anti-drug messages. I do not think that is going 
to save the day, but it is one more way that we use corporate 
participation to reinforce the messages of the campaign.
    Mr. Carter. Thank you.
    Mr. Souder. Mr. Bell.
    Mr. Bell. Thank you very much for being here today and for 
your testimony. I am curious, how much control do you all have 
over the creative content of the ads that are being 
disseminated?
    Mr. Marston. Well, it is, of course, the Director's final 
decision as to whether we air an ad or not.
    Mr. Bell. You have the final say?
    Mr. Marston. Absolutely.
    Mr. Bell. So any testing of the ad and that sort of thing, 
are you responsible for that, as well?
    Mr. Marston. Our contractor provides the testing, but we 
review the results.
    Mr. Bell. I know you talked about some possible changes in 
the direction of the campaign. But I am kind of curious, going 
back to the previous testimony, a lot of the focus has been on 
parents and that seems to be a goal here of late. Is that fair?
    Mr. Marston. It is definitely an important part of the 
campaign. One thing we are thinking about doing, we have had a 
lot of success with parents, and we are going to move some of 
our resources off of parents onto youth, but we still plan to 
maintain that parent communication effort.
    Mr. Bell. My original background was in journalism, not in 
advertising. I can sit up here and try to be an expert in 
advertising, but I also kind of like to take a common sense 
approach to some of these things.
    So when my staff was preparing and looking at some of the 
ads for today's hearing, we were somewhat surprised, because 
here is one. It was on A-8 of the Washington Post, and it is 
the dime bag ad. ``Is it OK to support terrorism, if it is only 
a little bit. So you buy a dime bag occasionally?'' You are 
familiar with the ad?
    Mr. Marston. I am.
    Mr. Bell. Who did you all think might be reading the 
Washington Post that is buying all the dime bags out there?
    Mr. Marston. Well, that is certainly targeted at our parent 
and youth influence or audience, we call it; folks who are 
going to have an influence on youth decisionmaking.
    We want to reinforce the negative consequences, and give 
them a negative consequence to reinforce with youth when they 
talk to kids about drugs.
    Mr. Bell. Well, I guess that is where I am getting a little 
confused. Because most parents, you would hope, would 
understand the negative effects of drugs, going in. You do not 
really have to sell them that their kids using drugs is a 
negative. You are trying to sell them on the fact they need to 
sit down and talk to their kids about it being negative, 
correct?
    Mr. Marston. I would definitely agree that we are trying to 
sell them on that. But I also think that there is not as high 
awareness as you might think among parents about the extent of 
drug use and the chance that their child, in particular, might 
be someone who is at risk.
    So we need to reinforce that message with parents and get 
them to pay attention to the issues, so that they can take that 
opportunity to communicate with their kids about it.
    Mr. Bell. Well, if a parent is completely out of the drug 
culture, let us say, would they even know what a dime bag is?
    Mr. Marston. Not being a parent, I am not in a very good 
position to answer. But I think that is a sufficiently common 
expression for particularly baby boomer parents, who have been 
a real problem for us.
    As you know, some parents in that generation who 
experimented with drugs in their youth are uncomfortable 
talking to their kids about drugs, and feel like they are not 
in a good position to do it, because of their own past use. So 
we need to reach that group, and I am sure that they are 
familiar with the expression, dime bag.
    Mr. Bell. The same ad, in the National Journal, focused on 
who?
    Mr. Marston. The same target, the adult and youth 
influencer population.
    Mr. Bell. Do you see where I am going? I am just a little 
bit confused on the focus of the campaign. Has that been one of 
the problem areas for the campaign, knowing exactly where to 
channel the resources?
    Mr. Marston. Well, it is always a problem for any 
advertising campaign to do your targeting in the best way 
possible. But we think we have worked really hard to do that, 
and I think the placement strategy is actually working.
    As Congressman Portman mentioned, our effort to reach 
parents is actually what has been demonstrated to be the most 
successful evaluation tool we have been using.
    Mr. Bell. One of the studies backs that up, the NIDA study. 
It showed that it was having some demonstrable effects with 
parents.
    Mr. Marston. Yes.
    Mr. Bell. But then the study did not, however, show any 
demonstrable effect on youth attitudes toward use of marijuana, 
widely considered a gateway drug.
    Mr. Marston. That is correct, and that is why Director 
Walters took very aggressive steps to change the focus of the 
campaign to change the age focus to 14 to 16, to intensively 
cover marijuana, and to do all of the testing of each ad before 
it goes on, to make sure that we have that impact.
    So the other thing that I mentioned about the evaluation is 
the problem it has in the scope of change that has to occur for 
it to appear as a statistically significant event in the 
survey. You actually have to have a 3 point change.
    So, for example, youth marijuana use would have to go down 
from 12 percent to 9 percent, over whatever period the 
evaluation is reporting on, for it actually to be detected. 
Over a 6-month period, which is the frequency of the reports, 
that is extremely unlikely to happen.
    Mr. Bell. Congressman Portman was also talking about the 
testing. Have you been at it long enough where you can get a 
pretty good test sample before an ad begins running, where you 
can have some certainty that it is going to have an impact on 
your targeted audience?
    Mr. Marston. I think we have. We use an advertising 
contractor who has extensive experience in testing. We have 
changed the testing protocol, using a lot of ad industry 
experts, who were on that task force that I mentioned, who 
helped inform some of the changes we made to the campaign, to 
decide on the testing protocol, what kind of sample, how to 
collect the data. So to the extent the advertising industry is 
successful in doing that, we think we are, too.
    Mr. Bell. Thank you, Mr. Chairman.
    Mr. Souder. Congresswoman Blackburn.
    Ms. Blackburn. Thank you, Mr. Chairman.
    Mr. Marston, thank you so much. I want to move back for 
just a moment and talk about your percentages on how you are 
spending your money and the media buy, production and media 
buy. Now, 7 percent of that is on production, and 6 percent is 
on labor fees.
    What I would like to know about that production portion, 
what rate are you paying? Are you paying the market rate on 
that? Do you have a favored rate, that everybody works at a 
reduced rate for you? How do you arrive at the rate that you 
pay?
    Mr. Marston. On the production costs, we actually do have a 
very favorable rate. Because it is a public service campaign, 
we have been able to secure that.
    Additionally, to make sure that all of the costs are 
acceptable and within the range of what should be paid, we have 
a subcontractor, Madison Avenue Management, which reviews the 
invoices for us and tells us if they are acceptable costs or 
not, so we can make a decision about payment on production 
costs.
    Ms. Blackburn. Do they charge a fee for that?
    Mr. Marston. They do, but it is a function, review of 
invoices, that would have to be performed by a Government 
employee, if it were not performed by them. So it is a function 
we have to expend resources on anyway.
    Ms. Blackburn. What is their fee, their percentage?
    Mr. Marston. It is actually not on a percentage fee basis. 
They do it on an annual contract, and it is between $250,000 
and $300,000 a year.
    Ms. Blackburn. So then 73 percent of that budget is being 
actually used for a media buy.
    Mr. Marston. I am sorry, my presentation of the numbers 
might have been confusing. The percentages happen at so many 
levels, because there are different contracts.
    The 87 percent of the funds paid to our principal 
contractor for advertising services, that is what is going to 
the buy and the planning and expenses. Seven percent is what 
goes to pay for those production costs.
    Those are the invoices that are reviewed by the 
subcontractor I mentioned, and 6 percent goes to pay the fees 
for labor and expenses of the contractor.
    Ms. Blackburn. Let me ask you this. Would you mind giving 
us a line item break-out on how that money is being spent? 
Would you submit that?
    Mr. Marston. I would certainly be happy to provide more 
information.
    Ms. Blackburn. That would be great. I think that would be 
very helpful for us to know that. Because I think that looking 
at paying a percentage for the purchase, one of the things that 
actually concerns me is that you have got companies that are 
giving their creative services to Partnership for a Drug Free 
America, and they are doing that on a pro bono basis.
    The concern would be that they would stop doing that, 
because there are companies that are being compensated for 
their work.
    I think what I would like to do is look at your budget and 
see how it is that you are using those funds that are going 
into that campaign. That would be great.
    Mr. Marston. Certainly; the advertising industry has been 
very generous in the pro bono creative services they provided 
through the Partnership. That is why we limit as much as 
possible how much we spend on creative to the few areas that I 
mentioned, the multi-cultural and the niche ads where it is not 
available.
    It has not been a problem, as far as I am aware of, but I 
am sure the Partnership can tell you more when they testify, 
that folks in other parts of the advertising industry, such as 
buying and production, have not made all those services 
available pro bono, so long as it is the creative that has made 
pro bono.
    We will be happy to provide additional information. If it 
is alright with you, I am going to have someone followup with 
your staff to find out specifically which line items you would 
like it broken out in.
    Because frankly, it is much more confusing than I have ever 
been able to understand when I read the accounting tables. But 
we will make sure we get you the information you need.
    Ms. Blackburn. Unfortunately, most Government budgets are. 
I think it would help us if we were able to have a better feel 
for exactly what the dollar items are, and where you guys are 
placing those.
    I commend you for looking at some non-traditional marketing 
avenues, when you are dealing with youth and trying to 
communicate a message. I think that is tremendously important.
    I would hope that the individuals who are doing your media 
buys have access to your survey information and your focus 
group information, as to what is working.
    Mr. Marston. Absolutely; all of the partners work very 
closely together on that decisionmaking.
    Ms. Blackburn. One other thing you had not mentioned, we 
talked a bit about the electronic media, the Web-based media, 
the print media.
    Mr. Marston. Yes.
    Ms. Blackburn. Are you looking at anything on an 
interactive basis, working with tours and entertainers and 
concerts, and some of those on-the-ground efforts that are so 
appealing? When you look at your 14 to 16 target market and the 
things they go for, those concerts and tours, and you have got 
some great corporate sponsor, are you linking through that?
    Mr. Marston. Absolutely; we think that is a great way to do 
sort of grass roots marketing. One example is N-Sync, which is 
very popular in that age group, or was when we did the ad. They 
did an ad on their concert tour.
    That was one of the examples where we needed to have the 
flexibility to pay for creative services, because the 
opportunity arose in such a timeframe that we had to just go 
send the camera crew right now to record them.
    That was something that we were not able to secure a pro 
bono person or agency for that quickly. So it is a good example 
of why we need that authority that I mentioned that the 
appropriators have given us on a reoccurring basis in the 
authorization.
    Ms. Blackburn. So when you talk about paying for the 
creative services, you are talking about the actual planning of 
the creative; or are you talking about behind the lens, the 
camera people?
    Mr. Marston. In that particular instance, it was the 
creative concept for the ad.
    Ms. Blackburn. The concept, OK, thank you.
    Mr. Marston. In most instances, we pay for production 
costs, but not for the sort of brainpower of creative that goes 
into it.
    Ms. Blackburn. Thank you.
    Mr. Souder. Thank you; the newspaper ad that Mr. Bell 
referred to, did that run in lots of cities?
    Mr. Marston. I believe it did. No, I am wrong, one moment. 
That was part of our adult influencer series, and it ran 
influencer publications with very large circulation, like the 
Washington Post.
    Mr. Souder. Did they do pro bono, as well, as part of the 
package?
    Mr. Marston. Yes; actually, to be clear, when we say pro 
bono, we mean only the donated creative services. When we talk 
about media giving time and space, we call it the media match, 
because of this confusion on the FCC issue. But yes, that 
received a media match.
    Mr. Souder. So it is not just television that is under that 
criteria.
    Mr. Marston. That is correct.
    Mr. Souder. Thank you; we appreciate your testimony today. 
Like I said, we will have a series of written questions with 
particulars for numbers and so on.
    We certainly will attempt to address the two particular 
things that you said at the end; although it is not clear how 
much we will micro-manage the one that has been granted a 
waiver the last few times.
    As you could hear from Congressman Portman's testimony and 
from the questions here, this is one of the big, unresolved 
questions that we are going to deal with, as to how much 
flexibility will be in the office. We are trying to work that 
out, as you well know.
    The Senate is certainly going to have opinions, too, but it 
will be one of the difficult questions. What we have chosen to 
do the last few years is to not object to any waivers on the 
authorizing, to give maximum flexibility. But we do need to 
come to some resolution, and the followup questions will help 
us to do so.
    Mr. Marston. Well, I encourage you to ask Mr. Pasierb about 
his view on that flexibility. Because I think that you will 
find that the Partnership is supportive, and believes that in 
the cases where we have used it, it is an important tool to 
have. Thank you very much, Mr. Chairman.
    Mr. Souder. Thank you.
    [Witnesses sworn.]
    Mr. Souder. Do not be too worried, but if we catch you in 
perjury, you may never see daylight, again; no, not really.
    But we do this as an oversight committee, just to make 
sure, and most of you have been through this before, so you are 
familiar with why we do it. But we have had all kinds of 
adventures in this committee and the precedent is there.
    So first, let us start with Mr. Pasierb. We welcome you, 
and we appreciate your meeting with us in New York and in other 
places here on the Hill, your past testimony, and the great 
work that you have done.

STATEMENTS OF STEVE PASIERB, PRESIDENT, PARTNERSHIP FOR A DRUG 
 FREE AMERICA; DAVID MCCONNAUGHEY, OGILVY & MATHER; AND PEGGY 
 CONLON, PRESIDENT AND CHIEF EXECUTIVE OFFICER, THE AD COUNCIL

    Mr. Pasierb. Thank you, Chairman Souder, and we appreciate 
all the efforts that you have done. Also, Mr. Cummings had to 
step out of the room, but we also thank him for his work as the 
ranking member on the committee.
    As a former Baltimore resident, I know the good that he 
does, and we appreciate your effort and Mr. Cummings' effort, 
in particular.
    For the record, I am Steve Pasierb, the president and CEO 
for the Partnership for a Drug Free America. Our chairman 
emeritus, who is Jim Burke, and also our new chairman, Roy 
Bostock, as well as our vice chair, Alan Rosenshein, send their 
personal gratitude, as well, to you, Mr. Chairman, for your 
leadership and to the committee's leadership and unwavering 
commitment to the drug issues.
    I would also like to recognize the efforts of Director 
Walters, the Director of the Office of National Drug Control 
Policy, who is not with us today. He has done an enormous 
amount of tireless work since he has taken over ONDCP, and that 
is greatly appreciated.
    I would also like to recognize Congressman Rob Portman, who 
was with us earlier, for his dedication to the drug prevention 
issue, which has gone back throughout his career, and also his 
leadership on the Coalition for a Drug Free Greater Cincinnati.
    That is an effort, in particular, that we are very proud to 
partner with Mr. Portman on; and that is a campaign for which 
we provide the majority of the drug-related advertising.
    For members of the subcommittee who do not know the 
Partnership, the Partnership began back in 1986, some 12 years 
before the inception of the federally funded media campaign.
    With the deep roots in the advertising discipline, the 
Partnership is a very unique coalition of volunteers from the 
communication industry, who work together on a pro bono basis, 
as we have heard, to help reduce demand for illegal drugs in 
America.
    Hundreds, if not thousands, of volunteers from advertising 
agencies, from production firms, from talent unions, the SAG 
and APTR people who work for free in these messages, who do not 
get their talent free, make this organization what it is.
    As a non-profit, just for background, half of our funding 
comes from the Robert Wood Johnson Foundation, the World's 
largest health care philanthropy, and the other half from some 
200 private sector corporations and funders, whose diversity 
helps ensure our independence.
    Our role in this media campaign that we are here to discuss 
today, simply stated, is facilitating the creation of 
advertising, pro bono, by the best and brightest throughout the 
communications industry.
    We recruit and direct dozens of ad agencies in this 
process. In fact, through the life of National Youth Anti-Drug 
Media Campaign, that number is somewhere near or above 50 
different advertising agencies, who have volunteered their time 
to this effort.
    We also coordinate the input of leading advertising 
creative directors, who review all of the campaigns. We bring a 
wealth of experience and knowledge to bear on the process. It 
has really been taken from our 17 years in running national, 
research-based drug education campaigns.
    To date, the value of our net contributions to the National 
Youth Anti-Drug Media Campaign tops $120 million. Even in this 
economic environment, the communications industry continues to 
find ways to give, and we are very much grateful for that.
    Mr. Chairman, the Partnership wholeheartedly supports the 
reauthorization of the National Youth Anti-Drug Media campaign. 
This is a very unique campaign that Congress created 6 years 
ago it's innovative, in that it is taking advantage of the 
enormous influence that mass media can have in reducing the 
demand for illicit drugs.
    While this media campaign has directed significant 
attention from this committee, and also from others in 
Congress, it is critically important to keep in mind, as you 
have heard from others, that as we discussed this and as we 
move forward through the reauthorization process, that since 
the campaign started, back in July 1998, drug use among 
teenagers in America has indeed declined.
    It is fairly remarkable when you consider that very little 
national news attention has been paid to the drug issue over 
the last several years. We have got adolescent drug use, 
trending downwards or stabilized, in some cases. As we heard 
from Congressman Portman that was the first step in the great 
reductions that they have seen in Cincinnati.
    We believe that the National Youth Anti-Drug Media Campaign 
really has played a significant role in the positive trends 
that we are seeing.
    Reauthorizing this media campaign is the right thing to do, 
Mr. Chairman, and we also believe it is the smart thing to do. 
That is because we know that anti-drug advertising, when 
grounded in research, when executed with the higher creative 
standards for its target audience, when pre-tested extensively 
for maximum impact, and when delivered at high levels of media 
exposure, can work.
    Now let us be clear, advertising alone will not solve the 
drug problem. But there is a growing body of evidence that 
shows it can drive down drug use and the demand for drugs.
    Independent studies on partnership advertising, from Yale 
University, the London School of Economics, Johns Hopkins 
Medical School, the University of Pennsylvania document this 
fact.
    In fact, one National Institute on Drug Abuse study 
reported that anti-drug ads cut marijuana use by 27 percent 
among at-risk teens in just 2 years. In fact, the Harvard 
Business School actually teaches a case history on the 
Partnership business model of social change.
    In market case studies, they also prove this point. We 
heard from Congressman Portman's Cincinnati coalition. This has 
also happened in Miami, in New Jersey, and elsewhere.
    There is also the Partnership's own national campaigns, 
predating and outside of the National Youth Anti-Drug Media 
Campaign. Inhalant's use is down by 13 percent since 1995; a 
change that Monitoring the Future closely associates with the 
Partnership for a Drug-Free America's national campaign on 
inhalant abuse.
    The dramatic rise in ecstacy use, which increased by 71 
percent in just 3 years, has been cutoff, according to the 
latest data, concurrent with the Dedicated National Education 
Campaign from the Partnership, focusing on this drug.
    With so much evidence stating the value of media-based drug 
education, we have every confidence that this media campaign, 
with further improvements, can work.
    Since taking office as head of the Office of National Drug 
Control Policy, Director Walters has indeed refocused the 
campaign on the core principles on the original mission of this 
effort. We are particularly pleased on the points of an older 
target audience; very appropriate for this campaign, as well a 
return to hard-hitting, negative consequences messages.
    Since taking over as our chairman of the Partnership, Roy 
Bostock has established regular communication with Director 
Walters, to ensure that the ONDCP PDFA relationship is strong, 
productive, and mutually supporting as one that is leading 
toward an optimally effective media campaign.
    Above all else, through reauthorization, the subcommittee 
can provide safeguards to ensure focus of the Media Campaign in 
the future. We know and appreciate how seriously the 
subcommittee regards its responsibility, and we have heard some 
of that today.
    In this regard, we believe the Media Campaign can benefit 
from some of the things that Mr. Portman talked about, in a 
clearer sense of the contributions made by each of the major 
campaign partners.
    Surely, the effort will benefit from maintaining the Media 
Campaign as a public/private partnership. The Partnership 
stands committed to delivering the vast majority of 
advertising, to fulfill the campaign's needs on a pro bono 
basis.
    Maximizing message delivery, both through purchased and 
matched exposure, must be a priority for the campaign in the 
future. Intensive testing of the advertising to ensure its 
effectiveness must take place before air.
    Finally, Mr. Chairman, it is absolutely clear that the 
campaign needs a responsive, agile evaluation instrument; one 
that is useful and can form the strategic direction of the 
campaign.
    Obviously, there are established and credible data sources 
like the University of Michigan's Monitoring the Future, as Mr. 
Marston testified, which can help us evaluate this campaign.
    In closing, now more than ever, the Media Campaign truly is 
needed, and I know that you believe that. We are not going to 
find a more efficient way of reaching millions of kids with 
consistent and impactful messages about the dangers of illicit 
drugs than through media-based education campaigns like this.
    This program requires less than 1 percent of the Federal 
drug budget. Taxpayers invest about $8 per teen, per year, in 
this campaign. It is a wise and honest investment, one that the 
vast majority of Americans have supported in the past.
    With continued improvements and your leadership, the 
investment in this campaign will prove to be one of the best 
investments ever made in a federally funded prevention program. 
Thank you.
    [The prepared statement of Mr. Pasierb follows:]
    [GRAPHIC] [TIFF OMITTED] T7450.022
    
    [GRAPHIC] [TIFF OMITTED] T7450.023
    
    [GRAPHIC] [TIFF OMITTED] T7450.024
    
    [GRAPHIC] [TIFF OMITTED] T7450.025
    
    [GRAPHIC] [TIFF OMITTED] T7450.026
    
    [GRAPHIC] [TIFF OMITTED] T7450.027
    
    [GRAPHIC] [TIFF OMITTED] T7450.028
    
    [GRAPHIC] [TIFF OMITTED] T7450.029
    
    [GRAPHIC] [TIFF OMITTED] T7450.030
    
    [GRAPHIC] [TIFF OMITTED] T7450.031
    
    [GRAPHIC] [TIFF OMITTED] T7450.032
    
    [GRAPHIC] [TIFF OMITTED] T7450.033
    
    [GRAPHIC] [TIFF OMITTED] T7450.034
    
    [GRAPHIC] [TIFF OMITTED] T7450.035
    
    Mr. Souder. Thank you very much.
    Mr. McConnaughey, we appreciate again you working with our 
schedule today, and we look forward to your testimony.
    Mr. McConnaughey. Thank you, Chairman Souder; just on a 
personal note, when your staff called, there really was not 
much question as to whether I was going to appear here today; 
not for any reason other than my responsibility to both my 
company, to my client, the White House Office of National Drug 
Control Policy, to the U.S. Congress, and, of course, 
ultimately, the role that I personally feel I can contribute in 
this important cause. So I appreciate your recognizing my 
changing schedule.
    Chairman Souder, Ranking Member Cummings, and distinguished 
members of the subcommittee, I am the project director of the 
ONDCP National Youth Anti-Drug Media Campaign at Ogilvy, the 
advertising services contractor for the program.
    Just as background on Ogilvy, Ogilvy is the eighth largest 
global advertising network. We serve such well-known clients 
and brands as IBM, American Express, Kodak, Motorola, Hershey, 
among others.
    As one of the world's largest and most respected 
advertising companies, Ogilvy's partner media company, 
Mindshare, is also one of the largest media planning and buying 
organizations in the world, ranking second with over $20 
billion in worldwide billings placement.
    This gives us significant negotiating leverage, clout, if 
you will, which results in the lowest possible market rates and 
access to substantial and unique pro bono media match 
opportunities.
    This has helped us achieve the unprecedented success in 
out-performing the congressional goal of the 100 percent media 
match donation value.
    Importantly for the campaign, we are also a full service 
advertising contractor agency, known in the industry as a 
leader that understands how audiences consume, use and are 
impacted by media and advertising.
    We have significant resources and in-house expertise, based 
on a breadth and depth of our broad client experience, working 
both in the private sector and in pro bono paradigms.
    We unite diverse disciplines and partners, ensuring that 
the latest industry thinking and practices are brought to the 
campaign. This is vital in a dynamic marketplace, with changing 
trends, media consolidation and fragmentation, new consumer 
choices and new media and burgeoning clutter.
    The job of understanding and reaching audiences today is 
more than just running traditional TV ads, although I do agree 
you must reach a threshold, as you have mentioned, Chairman 
Souder.
    It could include Internet, cable television, which again, 
of course, is broadcast television; but perhaps school-based 
messaging or community communications. Even mobile text phone 
messaging today is affecting our kids.
    With our marketing and media expertise, Ogilvy understands 
the strategies and tactics that help increase support behind 
the right core anti-drug messages.
    Leading and managing a paid campaign is different from 
managing a pro bono effort. Doing both together, which is what 
ONDCP requires be done, is a challenge that requires current 
and real market experience.
    The role of the partners and the contractors is very well 
defined by ONDCP. Ogilvy is the primary full service 
advertising services contractor, a strategic advisor, one of 
quite a few to the campaign, and the coordinator for the media 
efforts.
    Ogilvy recommends media strategies. We develop detailed 
plans from those media initiatives, negotiate and buy the media 
time and space. We do this for all the target audiences, 
meaning the general market, and specific multi-cultural 
audiences, which we do working with the specially knowledgeable 
subcontractors.
    This media responsibility involves continuously evaluating, 
balancing, and negotiating with thousands of media outlets all 
the time, organizations, vehicles. We purchase in any given 
plan year over 1,300 different outlets.
    Ogilvy negotiates, oversees, implements, and tracks the 
congressionally mandated pro bono match which, in effect, 
doubles our media stewardship responsibilities and, of course, 
increases the impact of the campaign, delivering more messages 
to our audiences.
    Ogilvy has outperformed the goals on the media match by 
succeeding to negotiate and deliver more than the 
congressionally mandated 100 percent match every year of our 
contract. That has totaled nearly $800 million in matched 
value, 107 percent of the goal, more than doubling the taxpayer 
value of the campaign.
    Ogilvy directs all advertising strategy, research, 
development, and testing. Working closely with ONDCP and PDFA, 
we have established rigorous processes for the development and 
testing of all advertising. These processes parallel those of 
the most sophisticated private sector marketing programs, and 
help ensure that the creative work is more effective than what 
might be driven largely by opinions.
    The strategic guidance afforded by the ongoing investment 
ONDCP makes in the independent research process, has generated 
a significant base of knowledge and data, which has aided in 
the development of what we believe is some of the best, most 
focused, and effective advertising to date, referenced both by 
Mr. Pasierb and Mr. Marston, I believe.
    Ogilvy has led these processes with its depth of in-house 
and on-contract resources, working closely with all of the 
campaigns partners. These processes have been, over time, 
continuously improved and refined; most recently using the good 
guidance of the director.
    Ogilvy also manages the Behavior Change Expert Panel, an 
independent advisory panel of experts with qualifications in 
advertising and marketing communications, behavior change, 
youth development, substance abuse issues, multi-cultural 
audiences, parenting skills, and public health.
    The BCEP is an example of Ogilvy and the ONDCP improving on 
industry standards and exceeding private sector standards to 
enhance campaign learning through the use of independent 
advisors.
    Ogilvy provides private sector best practice insights to 
the effort, working on the development stewardship of the ONDCP 
brand, ad flighting, and lead coordinating with campaign 
partners, and work on valuative analysis are examples of some 
of the best practices activities that we deliver for the 
campaign.
    We regularly develop advertising for the campaign on a pro 
bono basis, as well as for ad gaps, which Mr. Marston spoke 
about, and for inter-active banners. We also do the operational 
logistics components. There is quite a lot of that, that has to 
be done for the campaign.
    Over the course of the campaign, Ogilvy or our multi-
cultural subcontractors have served regularly as creative 
contributors to the campaign. In fact, in an account we 
recently did, we figured that we have produced approximately 29 
percent of the traditional ads done for the campaign.
    We have worked primarily within the PDFA process, but also, 
as Mr. Marston mentioned, we have provided other direct 
support, where the advertising could not be delivered through 
the traditional volunteer paradigm.
    The circumstances have been for multi-cultural efforts, 
niche, or specialty audiences, or when dictated by the need to 
move quickly or with particular deep and direct involvement on 
ONDCP parts, as with the Drugs and Terror Initiative. We do 
develop all of the interactive banner advertising under 
contract with the campaign.
    In conclusion, I would like to say that we know that the 
campaign is reaching its intended audiences and achieving 
break-through anti-drug awareness that has been referenced by 
Congressman Portman, by Mr. Marston, and Mr. Pasierb.
    The anti-drug message, and particularly the new marijuana 
message, is being infused in the market and is becoming a 
verifiable part of youth vernacular and pop culture. In focus 
groups, kids repeatedly indicate that they see our ads all the 
time, and they are reporting positively on their belief that it 
is affecting them.
    You have heard in previous testimony the good results 
reported by the Monitoring the Future study from the University 
of Michigan. We believe this is very good news and evidence the 
campaign is working as intended. Attitudes are changing and 
drug use by adolescents is declining.
    The campaign has achieved significant campaign impact on 
parents. The purpose of the campaign is to prevent drug use 
before it starts and to motivate occasional youth users to stop 
and, of course, reduce drug use.
    It is a hard, hard job, but this campaign is working, and 
the opportunity exists to drive the success forward and 
effectively sustain this kind of change in youth in what are, 
of course, future adults.
    One of the hallmarks of the campaign has been ONDCP's 
continuous improvement approach, a quest to make the campaign 
better and stronger. As the campaign moves forward, it is 
important to recognize that it is better.
    It is more focused than it was in 1998 when it started. 
With a strongly established grant, some of the best tested, 
most effective advertising ever on the air, and new guidance 
provided by the ONDCP Director, the campaign is a hard working 
tool for positive
change, making a difference in young people's lives.
    Ogilvy is proud to be associated with the Media Campaign, 
and we have worked to help make the campaign better, stronger, 
and smarter. We look forward to continuing to do so. Thank you.
    [The prepared statement of Mr. McConnaughey follows:]
    [GRAPHIC] [TIFF OMITTED] T7450.036
    
    [GRAPHIC] [TIFF OMITTED] T7450.037
    
    [GRAPHIC] [TIFF OMITTED] T7450.038
    
    [GRAPHIC] [TIFF OMITTED] T7450.039
    
    [GRAPHIC] [TIFF OMITTED] T7450.040
    
    [GRAPHIC] [TIFF OMITTED] T7450.041
    
    [GRAPHIC] [TIFF OMITTED] T7450.042
    
    [GRAPHIC] [TIFF OMITTED] T7450.043
    
    [GRAPHIC] [TIFF OMITTED] T7450.044
    
    [GRAPHIC] [TIFF OMITTED] T7450.045
    
    Mr. Souder. I would feel much more guilty about saying you 
have 8 minutes to summarize these complex things, if you did 
not spend your whole life spending 27 seconds to try to sell 
different things.
    Ms. Conlon.
    Ms. Conlon. Chairman Souder, Ranking Member Cummings, and 
distinguished members of the subcommittee, I am very grateful 
for your invitation to testify today about the National Youth 
Anti-Drug Media Campaign. I am here today in my role as the 
president and CEO of the Ad Council, but I bring with me my 
passion for the future of our Nation's youth.
    I commend you for holding these hearings despite these 
difficult times. While I know our country's national security 
and our troops are first and foremost on your minds, your 
attendance is testament to an unwavering commitment to help 
keep our Nation's children drug free.
    The nonprofit Ad Council has been a proud partner of the 
National Youth Anti-Drug Media Campaign, or the campaign, since 
its inception in 1998. As the Nation's leading provider of 
PSAs, the Ad Council has over 60 years experience in correcting 
social problems through advertising.
    The Ad Council's experience to date with the campaign has 
been exceptionally positive. As full partner, the Ad Council 
provides assistance to ONDCP in two important areas.
    First, we develop and implement a PSA campaign that 
encourages the public's participation in community anti-drug 
coalitions. Since its launch in 2000, this PSA campaign has 
received over $196 million in donated media. Second, the Ad 
Council facilitates the national Pro Bono Media Match Program. 
As you know, when ONDCP purchases time and space from media 
outlets for the core campaign, the media companies, in turn, 
provide a matching public service contribution. The purpose of 
the media match is to ensure that the paid campaign does not 
supplant current pro bono public service time donated by 
national and local broadcasting networks.
    A portion of the media match inventory is divided among 
organizations whose programs support the ONDCP's youth drug 
prevention strategy. The requirement for participation is that 
an organization's PSA must address a scientifically proven drug 
prevention strategy, including after-school programs, mentors 
for at-risk youth, and toll-free help lines for kids in 
trouble.
    Speaking on behalf of the 65 community groups that 
participate in the match, I commend Congress for recognizing 
that preventing youth drug use can only succeed with the full 
partnership of these grassroots organizations.
    I have included a complete list of these groups in my 
written testimony. They include Big Brothers/Big Sisters, 100 
Black Men, National Council on Alcohol and Drug Dependency, 
Boys and Girls Clubs of America, and Mothers Against Drunk 
Driving.
    Let me clarify for the subcommittee exactly what percentage 
of the match these community groups enjoy. Up until last 
November, drug prevention PSAs other than the paid core ads 
accounted for 70 percent of the TV and radio match.
    The remaining 30 percent of TV and radio, as well as 100 
percent of newspaper, 100 percent of magazine, and 100 percent 
of outdoor and nontraditional media match elements go to the 
campaign's core ads.
    Although the community nonprofits comprise a relatively 
small piece of the overall match pie, they have received 
tremendous media exposure since they began to participate in 
the match program.
    Consider the following successes for these organizations 
while they were participating in the match: The National 
Mentoring Partnership received over 200,000 calls from 
prospective mentors, resulting in over 40,000 new mentors for 
at-risk youth.
    The National 4-H Council enlisted over 56,000 more youth in 
positive anti-drug behavior like volunteerism and community 
service.
    Alanon and Alateen's English and Spanish language hotlines 
received a 200 percent increase in calls, which offer help to 
families and friends of substance abusers.
    As you well know, in your congressional districts and in 
communities nationwide, these groups, one teenager at a time, 
are doing as much to prevent teen drug use as the Ad Council, 
ONDCP, and PDFA, combined. I assure you, they very much 
appreciate that Congress gives them their fair share of 
exposure through the campaign's media match program.
    These grassroots organizations are ardent supporters of the 
media campaign, and we simply cannot expect to successfully 
reduce drug use without the critical local resources that they 
provide.
    It is our belief that we can pour millions of dollars 
behind a single focused message that drug use is bad for kids. 
However, if at the same time we do not offer real tools and 
alternative activities in their own backyard, then our 
strategies will likely fail.
    Frankly, it is analogous to a national advertising campaign 
that might successfully convince teens to wear Nike sneakers, 
and yet, they are not available for purchase at the local 
store. One could hardly expect a rise in sales.
    As this subcommittee considers reauthorizing the campaign, 
I urge you to consider the impressive results of these 65 
community organizations. I cannot over-emphasize how important 
it is that their PSA messages continue to be represented to the 
greatest extent possible in the match.
    I would like to focus the remainder of my testimony on the 
tagging of PSAs that qualify for the match. This is a time-
sensitive and critically important issue to the Ad Council and 
the participating non-profits.
    In its November ruling, the FCC sided against the Ad 
Council and with the National Organization for the Reform of 
Marijuana Laws [NORML], and determined that Section 317 of the 
Communications Act requires that match PSAs be identified as 
``Paid for [or sponsored] by ONDCP.''
    The FCC ruling violates plain language of the Media 
Campaign Act, and creates a result that is misleading, 
confusing, and costly for the 65 nonprofit participating 
organizations.
    Identifying ONDCP as the paying sponsor, rather than the 
nonprofits that independently produce and pay for these PSAs, 
is an incorrect labeling of the spots. ONDCP neither creates or 
exercises editorial control over their content, and the air 
time during which these spots are broadcast is not paid; rather 
it is donated by the media, networks, or stations.
    In addition, Ad Council research has uncovered a strong 
resistance by the public to volunteer for an organization, if 
they perceive it is drug-related.
    For all of the aforementioned reasons, several nonprofits 
that provide key drug prevention support, such as Big Brothers/
Big Sisters, the National Fatherhood Initiative, and the 
National Crime Prevention Council, have chosen to opt-out of 
the match, unless the FCC ruling is overturned.
    As a result of the ruling, networks have refused to air 
spots without the ``Paid for by ONDCP'' tag. Unless corrected 
immediately, the ruling will result in fewer prevention PSAs 
from community organizations that are offering real solutions 
to America's youth.
    On behalf of all the nonprofits in the match, we urge the 
subcommittee to correct this pressing matter, as you consider 
the reauthorization of ONDCP.
    I have submitted specific legislative language in my 
written testimony, and we respectfully request the subcommittee 
to include this in your final bill.
    In closing, I thank the distinguished members of the 
subcommittee for your leadership and commitment to help our 
Nation's children stay drug free.
    [The prepared statement of Ms. Conlon follows:]
    [GRAPHIC] [TIFF OMITTED] T7450.046
    
    [GRAPHIC] [TIFF OMITTED] T7450.047
    
    [GRAPHIC] [TIFF OMITTED] T7450.048
    
    [GRAPHIC] [TIFF OMITTED] T7450.049
    
    [GRAPHIC] [TIFF OMITTED] T7450.050
    
    [GRAPHIC] [TIFF OMITTED] T7450.051
    
    [GRAPHIC] [TIFF OMITTED] T7450.052
    
    [GRAPHIC] [TIFF OMITTED] T7450.053
    
    [GRAPHIC] [TIFF OMITTED] T7450.054
    
    [GRAPHIC] [TIFF OMITTED] T7450.055
    
    Mr. Souder. I thank you all for your testimony. I first 
want to address the last point that you made, Ms. Conlon.
    First, I think the ruling is absolutely stupid. I do not 
know how they could say it is paid for, when it is not paid for 
and the creative control was not there, and I assume we will 
address it in the bill.
    I am a little disturbed by your statement about the 
research, and I would like to ask a little bit more about that. 
Are you saying that people do not want to volunteer for groups, 
if they think it is anti-drug?
    Ms. Conlon. Yes, sir, and I will tell you where that 
research comes from. As I mentioned early in my testimony, we 
do a PSA campaign for ONDCP. The purpose of that campaign is to 
get community members to participate in coalitions. Those 
coalitions are very broad after-school mentoring, as you know.
    When we probed about the concept of asking people to 
volunteer on behalf of kids, whether it is coaching a soccer 
team or being a tutor, they are open to that. But as we got 
further into the messaging and we mention drugs, they are 
recoiled by that, frankly.
    Mr. Souder. This is really important, because you are, in 
effect, questioning the whole concept of whether or not anti-
drug advertising works in our Community Coalitions Bill, 
because we put up ads and we run these things as anti-drug 
volunteers.
    I do not want you to overstate what the study shows. So be 
careful in your choice of words, because we are on the record 
here.
    What I want to know is, are you saying they are less 
enthusiastic if they find it is anti-drug, and they are more 
enthusiastic if they think they are helping the kids; or are 
you saying there is actually a resistance to volunteering, if 
they think one of the purposes is to reduce drug use?
    Did the question say, you are going to be involved in 
reducing drug use? I am trying to figure out what the 
questioning was, because this is a challenge to what we do 
here.
    Ms. Conlon. No, I understand, Mr. Chairman, and I would be 
happy to submit to you the actual verbatims from the focus 
groups. But this research was done about 2 years ago. I will 
give you, to the best of my recollection, what some of the 
themes were that came out of the focus groups.
    There were comments made such as, ``I do not feel I am an 
expert on drug prevention.'' When they hear drug use and 
keeping kids off drugs, they immediately leap to the fact that 
they are going to be dealing with people that are experimenting 
with drugs, as opposed to preventing drug use. That is why we, 
in our language, are very careful to phrase the request.
    Mr. Souder. In other words, the resistance is not to the 
concept that it is an anti-drug group. It may be that they do 
not feel qualified as a volunteer then to participate in 
something that requires more expertise than playing basketball 
with the kids.
    Ms. Conlon. Right, or they assume that when you say ``drug 
prevention,'' they assume that there is an expectation that 
some of the people they will be interacting with are using 
drugs.
    So as I said before, we are very careful when we look at 
that language, because they also do not want to put themselves 
or their families at risk. It is really creating the perception 
of, what is this about?
    That is why the organizations that I have mentioned that, 
although they really appreciate participating in the match, 
they do not want to include that language at the end of their 
tagging.
    Because you can talk about being a Big Brother/Big Sister, 
but then when you say, paid for by the Office of National Drug 
Control Policy, they are afraid that paints it with a different 
meaning than the broader, volunteering on behalf of at-risk 
children.
    Mr. Souder. Mr. McConnaughey, can I ask you a followup 
question to this? I know this is not a primary focus of it, but 
it relates to another question that we have talked about, as 
well as Mr. Pasierb. That is, the labeling of the actual ads as 
``paid for by the Office of National Drug Control Policy.''
    The groups opposed to us often say they are for a 
responsible drug policy. Do you believe that it hurt the 
effectiveness in reaching some kids in America in the at-risk 
population by the way we label our ads? Because would we not 
have some of the same rub-off problem in the ads when they see 
it come up at the end that it is paid for by the people who may 
send you to jail?
    Mr. McConnaughey. That is a very interesting question, Mr. 
Chairman. I think that what we found in our research as we 
developed the brand, and we worked closely with PDFA on this, 
is that quite frankly, when you say something that says, 
``brought to you from the Government,'' if you will, or 
``brought to you by the White House Office of National Drug 
Control Policy,'' it carries with it a certain authoritarian 
tone.
    Many of the kids that we are talking to, they are not ready 
to hear a message that is brought to you by the principal of 
the school or whomever it might be. I think that it is very 
possible that you could get that kind of rub-off.
    One of the advantages of the anti-drug brand that we call 
my anti-drug-free kids is that it takes that authoritarian tone 
off of it and allows the advertising to be much more 
approachable and understandable.
    Mr. Souder. Mr. Pasierb, obviously, the Partnership for 
Drug Free America also includes the word ``Drug'' in its ad. It 
has a more positive connotation than Office of National Drug 
Control Policy, which I am not in favor of changing the office 
name. I am questioning what should be on the ad.
    Do either of you know, in the FCC regulations, if it is 
paid for by that agency, are we allowed to put in the ad a 
different name of an organization that you could see where we 
could put the money through; or are we under a legal 
requirement that we have to say, ``paid for by Office of Drug 
Control Policy''?
    Mr. Pasierb. I am not really an expert on the FCC piece. I 
do know that when the Partnership was first started, one of the 
goals was to have no branding on our messages, not even the 
name of the organization.
    At the time, our name was the Media Advertising Partnership 
for a Drug Free America, and the FCC actually required a name. 
That is why it was shortened to Partnership for a Drug Free 
America. But beyond that, I am really not an expert on the FCC 
individual requirements.
    We are about to release a campaign which has a different 
name than ours. But we have found that as long as that is a 
codified organization, it can carry that name.
    Right now, the media campaign messages carry the ONDCP in 
partnership name in what we call mouse-type. It is little, 
little tiny type that you can hardly read.
    Mr. Souder. Yes, we tried to change that in political 
advertising. We have to have a box now around who is paid for, 
because that can be carried in political advertising to the 
other extreme. Mr. Bell.
    Mr. Bell. It sure can. There are a lot of similarities 
there.
    Thank you for your testimony. I will start with Mr. 
McConnaughey, because I am interested and I am certainly 
supportive of the campaign going forward. But as it goes 
forward, obviously we want to make sure the money is being 
spent properly, and you all have been at it long enough now and 
engaged in this war against drugs on television to take 
somewhat of a systematic approach toward it. Is that fair?
    Mr. McConnaughey. Yes, sir, there is a specific protocol, 
as we develop our media strategies and plans to identifying 
target audiences and the people that we are trying to reach in 
each of those groups.
    Mr. Bell. Is that followed on every one of these ads? Mr. 
Pasierb, if you can followup on this, as well. When you were 
talking about efficacy of these campaigns so they will work, 
you conditioned them upon, if the ads are grounded on research 
and are properly tested beforehand.
    I will start with Mr. McConnaughey, if you want to 
followup. Are all of the ads properly tested, in your opinion?
    Mr. McConnaughey. Yes, sir, we have worked very closely 
with the Partnership, with the behavior change expert panel, 
which brings a range of expertise in behavioral science, 
marketing and advertising, to develop a protocol for testing 
the advertising. As I mentioned, some of the very best 
advertising we have ever had on the air has come out of that 
process in the past year.
    In my written testimony, there is a more detailed 
description of the protocols that we take our advertising 
through. If that is not adequate, I would certainly be happy to 
provide any further information to your staff.
    Mr. Pasierb. I would certainly concur, the new system is 
more exhaustive; and as you heard in other testimony, rather 
than testing a representative sample, we are now testing each 
and every message. I think that is a level of quality assurance 
that this campaign needs to have.
    Mr. Bell. The behavioral change that we refer to, I would 
think that's what makes the campaign perhaps the most 
difficult, because it is somewhat of a moving target, is it 
not?
    Years back, it may have been cocaine that you were focused 
on. That goes to marijuana. That goes to finding out parents 
are not talking to their kids. So the target is constantly 
changing.
    Mr. Pasierb. Absolutely, and behavioral change is the 
business we need to be in. So many times, campaigns like this 
were talking about raising awareness, and that is only the 
first step in the process.
    We need to not only raise awareness through this campaign, 
but shape attitudes. We need to be measuring attitudes in the 
marketplace, to see if people's beliefs on these drugs change, 
and then relate that to a behavior change. It is really a three 
step process.
    Whether that drug is marijuana or cocaine, there is a lot 
of evidence through the field, particularly the Monitoring the 
Future study, that has been done over a 25 year period. It 
shows that there are two really strong drivers of that; the 
first being perception of risk; the second being social 
disapproval. That is why the return to a larger percentage of 
the negative consequences messages in the campaign, we think, 
is the right step forward.
    You heard Mr. Marston talk about the Leo Barnett campaign 
that was on the air and some of the new work. We think the work 
that is out there right now is doing those things.
    Mr. Bell. How do you go about finding the focal point? I am 
a little bit confused about that. How is the decision made of, 
well, we need to start focusing on parents, because we believe 
parents are not talking to their kids about drug use?
    Mr. Pasierb. In the Partnership for a Drug Free America, 
what we do and what we spend the majority of our time and 
dollars on is doing consumer research; finding out what the 
underlying attitudes are.
    It is most important, and we got into this, this morning, 
in a session with Robert Wood Johnson Foundation. All that 
matters is the mind of 13 years olds. At one point, it really 
does not matter what we think.
    We have to go out there and do the learning, in a very 
exhaustive way, and find out what is going on in the minds of 
13 year olds, 14 year olds, 15 year olds, and 16 year olds, and 
then be able to play that back in a credible and persuasive 
manner through the advertising. So, if you will, you are also 
combining art and science here.
    Through that same attitudinal research, we have learned 
very clearly that kids who learn a lot about the risk of drugs 
at home are half as likely to use. That is the primary argument 
to make certain that this campaign pays attention; and the 
parents, caregivers, or whoever that caregiving adult is in 
that child's life, and encourages them.
    Right now, the thing that we are doing is monitoring; know 
what the who, what, where, why, and whens of that child's life.
    Mr. Bell. Knowing how quickly things change with kids, and 
I assume it is not different with teenagers, as it is with my 7 
year old. We started with Pokemon and now we are on to YuGiOh.
    Mr. Pasierb. Pokemon is so over. [Laughter.]
    Mr. Bell. I have noticed that, and the characters with 
YuGiOh are much more difficult. But that aside, how long does 
the data stay fresh?
    Mr. Pasierb. That is one of the challenges of the 
Partnership; that we have to constantly be gathering the data, 
and we have to constantly be doing new advertising.
    It is actually a frustration of ours that we do amazing 
campaigns that work so well, but we know after a specific 
period of time, we just have to retire them. That is because 
the target audience has changed; the world has changed; the 
perception of the drug has changed.
    That is one of the National Youth Anti-Drug Media Campaign. 
That is to continue to do that learning, and continue to 
produce an ongoing flow of advertising. It is not like we can 
create one body of work and say, we are set and we are just 
going to run this for the next year. We do need new campaigns 
and we are constantly refreshing it.
    We also have to be responsive to the campaign to what some 
of the rising drug trends are. Obviously, marijuana use makes 
up the majority of drug use. But there is also methamphetamine 
and Ecstacy and some other issues out there, that luckily we 
are getting a handle on in society, but we still have a long 
way to go.
    Mr. Bell. Mr. Chairman, if you will indulge me, is that 
piece in place for the data?
    Mr. Pasierb. The Partnership for a Drug Free America, 
through our campaigns and our ad time, we have made a conscious 
decision through working with ONDCP that we are going to direct 
our attention to those things. So the combination of the two is 
to get that done.
    So organizationally, our primary focuses right now are on 
ecstacy and methamphetamine, and also some new campaigns that 
we are going to roll out on intervention.
    Mr. Bell. Thank you, Mr. Chairman.
    Mr. Souder. Let me followup with some particular questions. 
Mr. McConnaughey, you followed-up with some of the discussion 
here. You have talked about a more rigorous action standard of 
raising the bar. In going through your written testimony, and 
all of your written testimony will be inserted, as well, you 
talked about, to test every ad, adjusted samples. Mr. Marston 
talked about some of the pre-test and releasing some of that 
data.
    I would like to hear how the inter-relationship works with 
the Partnership. If they develop an ad, who is doing the 
testing? Will that be through Ogilvy, Mr. McConnaughey?
    Mr. McConnaughey. Yes, we are managing the testing 
protocol. Members of the Partnership attend, in the case of the 
Early Development Group, the focus group sessions. Members of 
the Partnership and members of the volunteer agencies often 
attend those sessions.
    Mr. Souder. And if there are adaptations to the ads that 
are required, how is that resolved?
    Mr. McConnaughey. That is usually communicated by the 
moderator, in the case of the FSEPS that we are referring to 
here. That is communicated by the moderator in a written 
report, reviewed by the representatives of our strategic 
planning and research group, along with strategic planning and 
research group at PDFA, who come to consensus on the findings.
    That is communicated to ONDCP. ONDCP occasionally attends 
the FSEPS groups, also, and agreement is reached, because the 
creative process is a dynamic one. You want to take the data 
from those groups, for instance, and apply the judgment of the 
creative resources that the Partnership brings to bear on this. 
Because advertising requires a little art and science to 
resolve the changes that may or may not be made to any given 
piece of advertising, before it moves forward.
    Mr. Souder. As a practical matter, how does this work with 
your agency being directly paid by the Government, and the 
other being pro bono in the sense of Robert Wood and others 
funding and donating creative time? Can it be done in a timely 
fashion?
    Mr. McConnaughey. Can it be done in a timely fashion? If 
you mean, in terms of the research process, yes. I think that 
we work the research process as expeditiously as we can, given 
the fact that we have marketplace pressures to put advertising 
on the air at given times, because we have time slots 
purchased.
    As Mr. Pasierb mentioned, we have to change and refresh 
advertising, and we seek to be as efficient and timely as 
possible. There occasionally is some slippage, from time to 
time, that has required that we step in or change a schedule to 
address the need to make sure that the advertising is right 
before we move forward with it.
    Mr. Souder. Mr. Pasierb, could you talk about some of the 
changes that might have occurred in this and how you feel it is 
working, from the Partnership's standpoint? Director Walters is 
under clear mandates that he has to reduce drug use. He has re-
focused, and you said in your statement you were comfortable 
with some of that re-focus.
    We have talked with both your groups in New York, and I 
appreciate all the time you have spent. As we evolve, some of 
this has changed from longer term to more short term, very 
specific, and the director is looking for certain things. We 
have tightened the research standard. How does this work, from 
your perspective, with Ogilvy?
    Mr. Pasierb. The research process is absolutely essential 
to any advertising campaign. The feedback that we get from the 
groups is processed and implemented in a fairly timely fashion.
    In fact, the advertising agencies who were volunteering to 
the campaign, particularly the level of input from the target 
audience, is unequivocal. If we have learned this from the 
target audience, then we need to make a specific change in a 
message, and it is done right away. That is the kind of 
learning that any advertising agency, anybody working in the 
creative process, wants to assure their work.
    Because as we have said, you do not just want it to be 
creatively excellent. You want it to be impactful and you want 
it to be effective. That is what the FSET process, as we call 
it, brings to the advertising, and those agencies and the 
people at the Partnership appreciate that kind of consumer 
insight.
    At the end of the day, it is not what we think. It is not 
what Ogilvy thinks. It is not even, in some way, what ONDCP 
thinks. Again, it is that 14 year old, that 15 year old, that 
mom, that dad that we are trying to talk to, and we need to 
make absolutely certain we are touching them and moving them.
    Mr. Souder. You mentioned a few minutes ago some of the 
campaigns you are working with. I know partial answers to this. 
But to what degree do you do your own research or idea 
development or creative development, and to what degree does it 
come from ONDCP and/or Ogilvy saying, this is what we are 
targeting; we have ``x'' amount of dollars that we are focusing 
on in the Nation, and this is what we need?
    Mr. Pasierb. The role that we play in the National Youth 
Anti-Drug Media Campaign is to fulfill the creative product. 
The strategies in a lot of that is directed toward this.
    We basically operate as an organization on two tracks: the 
campaigns in the Partnership for a Drug Free America that we do 
with our own process in the air time that we are able to get 
from the national media, as we always have; and then the work 
from the National Youth Anti-Drug Media Campaign.
    Those are built on the message strategies of the campaign, 
and the goals of the campaign as delineated by the director. 
Our job is to make sure we create advertising that moves that 
target audience in the way that the strategy has outlined.
    Mr. Souder. What percentage of what you do is related to 
the national ad campaign, and what is what you do 
independently?
    Mr. Pasierb. Let me ask my colleague.
    It is roughly half and half, at this point, I think, as we 
looked at it. We spend a considerable amount of time, and right 
now, for example, we are doing new campaigns for the National 
Youth Anti-Drug Media Campaign that are essential to the 
balance of 2003 and early 2004.
    We have made a conscious decision within the organization 
to put our priorities aside. That was something we did about 3 
months ago to make certain that we could go out and find seven 
to nine new ad agencies to produce a large collection of 
campaigns.
    Overall, through the history, it has been about 50/50. 
Maybe right now, it is more like 90/10. But that is what you 
have to do, to make sure that we are fulfilling the needs of 
ONDCP.
    Mr. Souder. Mr. Marston used an interesting expression 
earlier. He said where there were not agencies basically, or 
they had the discretion at ONDCP, if they did not feel that 
alternatives were available, to go and seek other than 
Partnership support for the creative, and he mentioned a Native 
American agency. Have you seen this happen more?
    Mr. Pasierb. Absolutely; there are cases, and the American 
Indian agency is a great example. There are very few players in 
that field. They are not of a significant size to be able to 
absorb the number of people and the financial burden of 
volunteering their time.
    In those cases, on some of the multi-cultural pieces in 
particular, we do need to reach out to them in a different way 
and help for some of those funds.
    Also, there is the development of the Internet advertising, 
the actual ad units that run on the Internet is a very labor-
intensive process. In the Internet production advertising 
world, you do not have that same sense of volunteerism that you 
do in the mass media advertising world.
    So while we see our role as creating the majority of the 
parent and youth-targeted advertising, those are two good 
examples, multi-cultural and Internet, where there does need to 
be that ability to reach out and do things in a different way.
    Mr. Souder. Do you believe, other than those exceptions, 
that there have been some of the more mainstream things that 
you have not had the opportunity to work with, and have you 
been working with Ogilvy to figure out how to balance those?
    Mr. Pasierb. Absolutely, it is an ongoing process. There 
have been a number of components of the campaign that we have 
been involved in, the Drugs in Terrorism Campaign and others. 
Striking the balance of the flexibility to do those things is 
the issue at hand.
    Mr. Souder. Mr. McConnaughey, do you have any insights into 
this process? There is no question that this is one of the 
difficulties.
    We have had very blunt discussions among both groups. This 
is a huge matter of debate in Congress, among yourselves, and 
in the office of ONDCP, of which this is merely a mild version 
right now; that the Director's goals of flexibility, which is 
the euphemism that everybody is using today, the ability to get 
fast, rapid response the way he wants it, and Ogilvy as a paid 
agency that does that, versus the willingness of the 
Partnership, which has been aggressive and is a commitment to 
try to be responsive to that.
    How do you see this playing out, as far as how much we 
should micro-manage this in the bill, versus how much 
flexibility we should leave? I ask you both to comment on that.
    Mr. McConnaughey. Sir, I think the answer to that is that 
flexibility, using the euphemism, for the Director to guide the 
campaign to be responsive to the market place conditions if you 
will is, of course, very, very important. It is not our task to 
do the creative product for the campaign on an ongoing or 
large-scale basis.
    The Partnership for a Drug Free America is a remarkable 
organization, bringing together the skills of many advertising 
agencies from around the country to create, as Steve just 
referred to, a large body of work.
    Just recently, they put more work on the table to meet some 
very important immediate needs for ONDCP well into next year. 
There are some gaps in that work that they are working to fill, 
but some of our multi-cultural subcontractors are standing by, 
ready to do that if, in fact, we have some of these issues. As 
we said, sometimes these things are difficult to do in some of 
the niche areas, the multi-cultural areas, or some immediate 
demand areas.
    I think that the opportunity is there for us to help, when 
we need to help. But the principle of the campaign, the way the 
campaign has been established, creates this very important 
public/private partnership that has never been done before.
    It is hard, that process, but also the task that is before 
us is a difficult one. But I think that what we are beginning 
to see, the hard work is paying off. Yes, there are always some 
frictions and squabbling. But we know about debate, and I 
certainly do not have to tell any members of this committee 
about debate, because it is what you do every day.
    But out of that sort of thesis antithesis, we come to come 
to a synthesis, and I think the fact is that some of the best 
advertising ever seen directed to parents and kids is on the 
table today; on the air today, if you will, and we have some 
terrific work in the pipeline coming forward.
    Mr. Souder. Mr. Pasierb.
    Mr. Pasierb. I would concur on that. In early December, 
when we were able to settle the 2003 media plan, it became very 
clear that there was an enormous amount of work that needed to 
be produced in a very quick way.
    We were able to go out and secure those agencies, get those 
agencies briefed, along with our friends at ONDCP; get out 
there, get them on board, get them briefed, get them turned 
around so that, I believe, it was 3 weeks ago, we were able to 
present that entire body of work to the Director, and get his 
input and his opinions and move forward on it. That was a very 
fast turnaround.
    Doing advertising is certainly a unique process. If you do 
testing and you find out your advertising is not correct, you 
need to go back and you need to take the time to make sure it 
is correct. Speed is not all important; accuracy is, in this 
case.
    So we have been able to meet the needs of the campaign. We 
feel we are going to be able to continue to meet the needs of 
the campaign. Mr. Bostock, our new chairman, has some 
strategies in terms of producing larger pods of advertising 
from each volunteer, to make sure that we build, essentially, a 
reservoir of advertising, should we need to access that 
reservoir for tactical needs of the campaign.
    But in terms of producing advertising, speed probably is 
not the issue here, because the campaign has a process we need 
to go through; the FSEP testing, the review, the behavioral 
change expert panel. If those processes are applied to all the 
advertising, it is going to take a certain amount of time to 
work through the National Youth Anti-Drug Media Campaign checks 
and balances that are in place.
    So we view the flexibility issue, again, in those places 
where you simply cannot get someone to volunteer to do this 
work, or we do hit a place where there simply is not a 
sufficient number of volunteers and you have to fill a gap; if 
you need an ad for a specialty publication for coaches and it 
is a one little print add, it is very hard to go out and find 
somebody to go out and volunteer and turn that out right away. 
In that case, it might be easier for someone to just turn it 
around quickly. But those are the instances where we need to 
have that.
    Mr. Souder. Mr. Bell, did you have a question?
    [No response.]
    Mr. Souder. Let me ask one other question of Mr. 
McConnaughey, because it is a very difficult subject that we 
have more than adequately, in general, debated. But now we are 
down to writing the bill, and there is the question of the past 
accounting problems.
    We are still debating with the Senate as to language and 
how to work through this. I, as you know, have had deep 
problems, as we all did, with what happened, and at the same 
time, have not hammered on Ogilvy as hard as some, because 
those were kind of how the accounting world works. But somebody 
should have read the Government regulations before you did a 
Government contract.
    I am assuming that, in general, Ogilvy has now figured out 
the difference in the contracting world for how you cross-bill. 
What is your opinion about if we include language that says, 
violations or anybody who has future violations loses the 
contract; and also, how we could better prepare if other 
agencies are involved in this process in the future, so that we 
do not have re-occurrences?
    Mr. McConnaughey. Chairman Souder, I am not an expert on 
policy matters, nor am I am expert at all in Federal 
procurement.
    What I can say is, I appreciate your consideration of me as 
a witness with regard to this matter. I know there are systems 
which regrettably were not up to the task when we first won 
this contract, and have now been found to be more than 
adequate, if you will, by the defense contract audit agency, 
one of the most rigorous of the Government accounting 
organizations.
    We have an administrative agreement with the Department of 
the Navy and with the new Department of the Interior, which has 
taken over administration of the contract, which ensures that 
the integrity of the program will be maintained.
    Based on my experience with that, there are protocols and 
processes to ensure that, and I think it certainly is the 
responsibility of future contractors to be sure that they do 
so. I know that ONDCP has committed to ensuring the integrity 
of the program, also.
    Mr. Souder. If anyone from your firm wants to add 
additional material to your answer for the record, because 
there were statements made in the record today, and there have 
been in the past; and if Ogilvy wants to make any additional 
statements or any recommendations, we would strongly consider 
those. Because it is one of the main things being debated in 
the last few parts of where there is not necessarily agreement, 
both internally and between us and the Senate.
    These are going to be hard decisions to figure out. It is 
very easy to demagog off past experience. What we are trying to 
figure out is, how best to address the most effective 
advertising that we can get in this country, because the issue 
is so difficult.
    Are there any closing comments that anybody wants to make? 
We have covered a lot. We have some written questions that we 
will be sending each one of you, so we can build the record and 
get this in, in a timely fashion.
    You have probably heard me say that we are looking for a 
mark-up in a few weeks. So when we get the questions, if you 
can respond relatively rapidly, so we can get them to the 
subcommittee members.
    The full committee is likely to have at least one hearing, 
as well, and have some debate to try to engage further members. 
But hopefully, if we do our job right on the subcommittee, we 
will have at least clarified where the remaining differences 
are likely to be. Mr. Pasierb, did you have a comment?
    Mr. Pasierb. You have our absolute commitment to all of 
that. Also, on the Appropriations side, our vice chairman, Mr. 
Rosenshein, will be testifying to Mr. Istook. We realize this 
is a two-part process of getting both the good reauthorization 
language and then the appropriators on our side to continue the 
campaign.
    I would just echo what I said in my testimony. We have made 
a lot of improvements in this campaign over the last year. The 
Partnership finds itself at a point of significant strategic 
agreement with Director Walters on the changes he has made in 
this campaign, and we believe that this campaign can indeed 
prove what we have said all along, that anti-drug advertising 
does indeed work.
    Mr. Souder. Thank you all for your work, and thank you for 
your many years of dedication in all your organizations.
    [Whereupon, at 4:35 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
and additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T7450.004

[GRAPHIC] [TIFF OMITTED] T7450.005

[GRAPHIC] [TIFF OMITTED] T7450.056

[GRAPHIC] [TIFF OMITTED] T7450.057

[GRAPHIC] [TIFF OMITTED] T7450.058

[GRAPHIC] [TIFF OMITTED] T7450.059

[GRAPHIC] [TIFF OMITTED] T7450.060

[GRAPHIC] [TIFF OMITTED] T7450.061

[GRAPHIC] [TIFF OMITTED] T7450.062

                                   - 

</pre></body></html>
